<html>
<title> - UNITED STATES COAST GUARD OPERATIONS IN ALASKA</title>
<body><pre>[Senate Hearing 112-860]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-860
 
             UNITED STATES COAST GUARD OPERATIONS IN ALASKA

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                       AUGUST 6, 2012--KODIAK, AK

                               __________

         Printed for the use of the Committee on Appropriations


   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=senate&committee=appropriations

                              
                                __________
                             
                      U.S. GOVERNMENT PUBLISHING OFFICE 

80-814 PDF                    WASHINGTON : 2015
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi, Ranking
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 KAY BAILEY HUTCHISON, Texas
PATTY MURRAY, Washington             LAMAR ALEXANDER, Tennessee
DIANNE FEINSTEIN, California         SUSAN COLLINS, Maine
RICHARD J. DURBIN, Illinois          LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            LINDSEY GRAHAM, South Carolina
MARY L. LANDRIEU, Louisiana          MARK KIRK, Illinois
JACK REED, Rhode Island              DANIEL COATS, Indiana
FRANK R. LAUTENBERG, New Jersey      ROY BLUNT, Missouri
BEN NELSON, Nebraska                 JERRY MORAN, Kansas
MARK PRYOR, Arkansas                 JOHN HOEVEN, North Dakota
JON TESTER, Montana                  RON JOHNSON, Wisconsin
SHERROD BROWN, Ohio

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

          Subcommittee on the Department of Homeland Security

                 MARY L. LANDRIEU, Louisiana, Chairman
FRANK R. LAUTENBERG, New Jersey      DANIEL COATS, Indiana
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            RICHARD C. SHELBY, Alabama
PATTY MURRAY, Washington             LISA MURKOWSKI, Alaska
JON TESTER, Montana                  JERRY MORAN, Kansas

                           Professional Staff

                            Charles Kieffer
                              Chip Walgren
                              Scott Nance
                            Drenan E. Dudley
                      Rebecca M. Davies (Minority)
                        Carol Cribbs (Minority)

                         Administrative Support

                              Nora Martin
                      Courtney Stevens (Minority)

                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Mary L. Landrieu....................     1
    Article by Admiral Robert J. Papp, The Emerging Arctic 
      Frontier...................................................     2
    Prepared Statement of........................................    11
Statement of Senator Lisa Murkowski..............................    12
Statement of Admiral Robert J. Papp, Commandant, U.S. Coast Guard    16
    Prepared Statement of........................................    19
Operation Arctic Shield 2012.....................................    19
The Coast Guard in Alaska and the Arctic Region..................    20
The Coast Guard in Context of National Arctic Policy.............    21
Arctic: Coast Guard Mission......................................    22
Arctic: Drilling by Shell........................................    23
Polar Ice Breakers: Number of Vessels............................    24
Operation Arctic Shield..........................................    26
Cutters: Replacing Legacy Vessels................................    28
Polar Icebreakers: Leasing Pros and Cons.........................    31
Fisheries Enforcement............................................    32
Statement of Dr. Mark Myers, Vice Chancellor for Research, 
  University of Alaska--Fairbanks, Fairbanks, Alaska.............    34
    Prepared Statement of........................................    36
Major Drivers of Change in the Arctic............................    37
Needed Investments in the Arctic.................................    37
Government Coordination With Research Universities...............    38
Statement of Merrick Burden, Executive Director, Marine 
  Conservation Alliance, Seattle, Washington.....................    38
    Prepared Statement of........................................    41
Statement of Bruce Harland, Vice President, Commercial Services, 
  Crowley Marine, Oakland, California............................    43
    Prepared Statement of........................................    44
The Arctic Region in Alaska......................................    44
Strategies To Address Changing Climatic Conditions...............    44
Additional Committee Questions...................................    49
Questions Submitted to the U.S. Coast Guard......................    50
Questions Submitted by Senator Mary L. Landrieu..................    50
Polar Icebreakers................................................    50
Polar Sea........................................................    50
Offshore Patrol Cutters..........................................    51
Rescue 21........................................................    52
Arctic Research..................................................    52
Letter From Lieutenant Governor Mead Treadwell, State of Alaska..    53


             UNITED STATES COAST GUARD OPERATIONS IN ALASKA

                              ----------                              


                         MONDAY, AUGUST 6, 2012

                               U.S. Senate,
                 Subcommittee on Homeland Security,
                               Committee on Appropriations,
                                                        Kodiak, AK.
    The subcommittee met at 9:40 a.m., at Hangar No. 3, U.S. 
Coast Guard Air Station Kodiak, in Kodiak, Alaska, Hon. Mary L. 
Landrieu (chairman) presiding.
    Present: Senators Landrieu and Murkowski.


             opening statement of senator mary l. landrieu


    Senator Landrieu. Thank you so much for joining us for this 
Subcommittee on Homeland Security Appropriations, and I would 
like to call the hearing to order.
    It is truly an honor for me to be back here in Alaska. This 
is my third time as a United States Senator. I had the great 
pleasure of visiting over a decade ago with a wonderful host, 
very well known to my colleague, Senator Murkowski, because I 
was a guest of her father, Senator Frank Murkowski. A few years 
later, I had the opportunity to come back to Alaska with the 
Hon. Ted Stevens.
    It really is a joy and a privilege. I thank Senator 
Murkowski for encouraging me, as a wonderful member of this 
subcommittee, to hold this important field hearing here in 
Kodiak, Alaska.
    I want to begin by acknowledging Chairman Malutin. Thank 
you very much for inviting us to his island. The mayors are 
also here, and we have several elected officials.
    I know that Senator Murkowski, who has just been a 
phenomenal leader for Alaska, and such a strong voice, not only 
for this community, but for the entire State, I'm sure that she 
will recognize some of those individuals in her opening 
statement.
    I want to begin with an opening statement, which is our 
procedure. I will turn it then over to Senator Murkowski.
    I am thrilled to be here at, literally, the largest Coast 
Guard station in America, with thousands of men and women from 
our Coast Guard. This is a little late, but happy birthday for 
your 222nd birthday. We have been celebrating, I'm sure, 
Admiral, all over the Nation and the world, because of the 
extraordinary work of the Coast Guard. So my belated happy 
birthday to all of you.
    I wanted to begin with a statement that came from an 
article, and I would like to put it in to the record. Admiral 
Papp wrote this article. It is called the ``Emerging Arctic 
Frontier''. I'm sure that he will refer to it in his opening 
statement.
    But I think it is appropriate, Senator Murkowski, for us to 
begin at your charge to hold this hearing today with the words 
of Admiral Papp when he says, ``The world may seem to be 
growing smaller, but its seas are growing bigger, particularly 
in the great north where a widening water highway beckons both 
with resources and challenges.''
    That's why Senator Murkowski has asked me to conduct this 
hearing this morning. I'm happy to do it. I would like to 
submit for the record, and without objection, the entire 
article.
    [The article, originally published in Proceedings Magazine 
on pages 16-21 (February 2012 Vol. 138/2/1,308), follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    <greek-l>Article by Admiral Robert J. Papp, The Emerging Arctic 
                                Frontier
    As a maritime nation, the United States relies on the sea for our 
prosperity, trade, transportation, and security. We are also an Arctic 
nation. The Arctic region--the Barents, Beaufort, and Chukchi seas and 
the Arctic Ocean--is the emerging maritime frontier, vital to our 
national interests, economy and security.\1\
---------------------------------------------------------------------------
    \1\ U.S. Code, Section 4111, ```Arctic' defined,'' http://
codes.lp.findlaw.com/uscode/15/67/4111.
---------------------------------------------------------------------------
    The Arctic Ocean, in the northern region of the Arctic Circle, is 
changing from a solid expanse of inaccessible ice fields into a growing 
navigable sea, attracting increased human activity and unlocking access 
to vast economic potential and energy resources. In the 35 years since 
I first saw Kotzebue, Alaska, on the Chukchi Sea as a junior officer, 
the sea ice has receded from the coast so much that when I returned 
last year the coastal area was ice-free. The shipping, oil-and-gas, and 
tourism industries continue to expand with the promise of opportunity 
and fortune in previously inaccessible areas. Experts estimate that in 
another 25 years the Arctic Ocean could be ice-free during the summer 
months.\2\
---------------------------------------------------------------------------
    \2\ RADM David W. Titley, USN, and Courtney C. St. John, ``Arctic 
Security Considerations and the U.S. Navy's Roadmap for the Arctic,'' 
Naval War College Review, vol. 63, no. 2 (Spring 2010), pp. 35-48.
---------------------------------------------------------------------------
    This change from ``hard'' to ``soft'' water, growing economic 
interests and energy demands, and increasing use of the seas for 
maritime activities by commercial, native, and recreational users 
demands a persistent, capable U.S. Coast Guard presence in the Arctic 
region. Our mandate to protect people on the sea, protect people from 
threats delivered by sea, and protect the sea itself applies in the 
Arctic equally as in the Atlantic and Pacific oceans and Gulf of Mexico 
and Caribbean Sea.
    The difference is that in the rest of the maritime domain, we have 
an established presence of shore-based forces, small boats, cutters, 
and aircraft supported by permanent infrastructure and significant 
operating experience. Although the Coast Guard has operated in southern 
Alaska, the Gulf of Alaska, and Bering Sea for much of our history, in 
the higher latitudes we have little infrastructure and limited 
operating experience, other than icebreaking. Historically, such 
capabilities were not needed. Year-round ice, extreme weather, and the 
vast distances to logistical support, prevented all but icebreakers or 
ice-strengthened ships from operating there. As a result, commercial 
enterprise on any significant scale was nonexistent. But the Arctic is 
emerging as the new maritime frontier, and the Coast Guard is 
challenged in responding to the current and emerging demands.
                          resource-rich realm
    The economic promise of oil and gas production in the Arctic is 
increasingly attractive as supply of energy resources from traditional 
sources will struggle to meet demand without significant price 
increases. The Arctic today holds potentially 90 billion barrels of 
oil, 1.6 trillion cubic feet of natural gas, and 44 billion barrels of 
natural gas liquids, 84 percent of which is expected to be found in 
offshore areas. This is estimated to be 15 percent of the world's 
undiscovered oil reserves and 30 percent of natural gas reserves. Oil 
companies are bidding hundreds of millions of dollars to lease U.S. 
mineral rights in these waters and continue to invest in developing 
commercial infrastructure in preparation for exploration and 
production, and readiness to respond to potential oil spills or other 
emergencies.\3\ In August, the Department of the Interior granted Royal 
Dutch Shell conditional approval to begin drilling exploratory wells in 
the Beaufort Sea north of Alaska starting next summer. ConocoPhillips 
may begin drilling in the Chukchi Sea in the next few years. Also, 
Russia has announced plans for two oil giants to begin drilling as 
early as 2015, and Canada has granted exploration permits for Arctic 
drilling.\4\
---------------------------------------------------------------------------
    \3\ U.S. Geological Survey Circum-Arctic Resource Appraisal, http:/
/pubs.usgs.gov/fs/2008/3049/fs2008-3049.pdf. ``Climate Change in the 
Arctic: Beating a Retreat,'' The Economist, 24 September 2011, p. 100. 
``U.S. to Offer Oil Leases in the Gulf,'' The New York Times, 19 August 
2011.
    \4\ ``Shell Gets Tentative Approval to Drill in Arctic,'' The New 
York Times, 4 August 2011. Arctic Economic Development Summit, Chukchi 
Exploration Activities, ConocoPhillips Alaska, 5 August 2011, 
www.nwabor.org/AEDSdocs/22-35ConocoPhillips.pdf. ``Russia Embraces 
Offshore Arctic Drilling,'' The New York Times, 15 February 2011. 
``Russia, Exxon Mobil strike deal for Arctic offshore oil drilling,'' 
Anchorage Daily News, 30 August 2011. ``PEW Study urges Canada to 
suspend Arctic oil exploration,'' Terra.Wire, 9 September 2011, 
www.terradaily.com/afp/110909155430.fnr4r8w9.html.
---------------------------------------------------------------------------

    ----------------------------------------------------------------

            Icebreaker Essential To Resolve Nome Fuel Crisis
    As this article went to print, the Coast Guard cutter Healy had 
just cleared a path through hundreds of miles of Arctic ice to allow 
the commercial tanker Renda to deliver gasoline and diesel fuel to 
Nome, Alaska, which is currently inaccessible by road. The fuel will 
replenish Nome's scarce supplies and sustain the residents through the 
winter freeze. The situation arose after a regularly scheduled shipment 
was delayed in November by severe storms in the Bering Strait. The 
Healy was completing a scheduled science mission when it diverted to 
assist. The Coast Guard is responsible for providing U.S. domestic and 
polar icebreaking capability.

    ----------------------------------------------------------------
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    The fisheries and seafood industry in the southern Arctic region 
(the Bering Sea and Gulf of Alaska) sustains thousands of jobs and 
annually produces approximately 1.8 million metric tons' worth of catch 
valued at more than $1.3 billion.\5\ Although subsistence-hunting has 
occurred in the higher latitudes for centuries, as waters warm, fish 
and other commercial stocks may migrate north, luring the commercial 
fishing industry with them.
---------------------------------------------------------------------------
    \5\ ``The Seafood Industry in Alaska's Economy,'' 2011 update of 
the Executive Summary, www.marineconservationalliance.org/wp-content/
uploads/2011/02/SIAE_Feb2011a.pdf
---------------------------------------------------------------------------
    As the Arctic Ocean becomes increasingly navigable it will offer 
new routes for global maritime trade from Russia and Europe to Asia and 
the Americas, saving substantial transit time and fuel costs from 
traditional trade routes. In summer 2011, two Neste oil tankers 
transited the Northeast Passage from Murmansk to the Pacific Ocean and 
onward to South Korea, and Russian Prime Minister Vladimir V. Putin 
pledged to turn it into an important shipping route.\6\
---------------------------------------------------------------------------
    \6\ ``Breaking the Ice: Arctic Development and Maritime 
Transportation,'' Iceland Ministry for Foreign Affairs conference, 27-
28 March 2007, www.mfa.is/media/Utgafa/
Breaking_The_Ice_Conference_Report.pdf. ``Neste oil ships operate 
successfully along the Northeast Passage,'' Neste Oil Corporation press 
release, 30 September 2011, www.reuters.com/article/2011/09/30/
idUS136183+30-Sep-2011+HUG20110930. ``On Our Radar: Putin Covets 
Northeast Passage, The New York Times Green Blog, 23 September 2011, 
http://green.blogs.nytimes.com/2011/09/23/on-our-radar-putin-covets-
northeast-passage/.
---------------------------------------------------------------------------
             resolving an old liability on the rule of law
    Because of these opportunities and the clamor of activities they 
bring, a legally certain and predictable set of rights and obligations 
addressing activity in the Arctic is paramount. The United States must 
be part of such a legal regime to protect and advance our security and 
economic interests.
    In particular, for the past several years there has been a race by 
countries other than the United States to file internationally 
recognized claims on the maritime regions and seabeds of the Arctic. 
Alaska has more than 1,000 miles of coastline above the Arctic Circle 
on the Beaufort and Chukchi seas.\7\ Our territorial waters extend 12 
nautical miles from the coast, and the exclusive economic zone extends 
to 200 nautical miles from shore (just as along the rest of the U.S. 
coastline). That's more than 200,000 square miles of water over which 
the Coast Guard has jurisdiction.
---------------------------------------------------------------------------
    \7\ Department of Defense, Report to Congress on Arctic Operations 
and the Northwest Passage, May 2011, www.defense.gov/pubs/pdfs/
Tab_A_Arctic_Report_Public.pdf.
---------------------------------------------------------------------------
    Below the surface, the United States also may assert sovereign 
rights over natural resources on its continental shelf out to 200 
nautical miles. However, with accession to the Law of the Sea 
Convention, the United States has the potential to exercise additional 
sovereign rights over resources on an extended outer continental shelf, 
which might reach as far as 600 nautical miles into the Arctic from the 
Alaskan coast. Last summer, the Coast Guard cutter USCGC Healy (WAGB-
20) was under way in the Arctic Ocean, working with the Canadian 
icebreaker Louis S. St-Laurent to continue efforts to map the extent of 
the continental shelf.
    The United States is not a party to the Law of the Sea Convention. 
While this country stands by, other nations are moving ahead in 
perfecting rights over resources on an extended continental shelf. 
Russia, Canada, Denmark (through Greenland), and Norway--also Arctic 
nations--have filed extended continental-shelf claims under the Law of 
the Sea Convention that would give them exclusive rights to oil and gas 
resources on that shelf. They are making their case publicly in the 
media, in construction of vessels to patrol these waters, and in 
infrastructure along their Arctic coastline. Even China, which has no 
land-mass connectivity with the Arctic Ocean, has raised interest by 
conducting research in the region and building icebreakers.\8\ The 
United States should accede to the Law of the Sea Convention without 
delay to protect our national security interests: sovereignty, economy, 
and energy.
---------------------------------------------------------------------------
    \8\ ``Group: China preparing for Arctic melt commercial 
opportunities,'' USA Today, 1 March 2010. ``China to launch 8 
Antarctic, Arctic expeditions, ChinaDaily.com, 25 September 2011, 
www.chinadaily.com.cn/china/2011-09/25/content_13788608.htm.
---------------------------------------------------------------------------
                         arctic responsibility
    Wherever human activity thrives, government has a responsibility to 
uphold the rule of law and ensure the safety and security of the 
people. The Coast Guard is responsible for performing this mission on 
the nation's waters, as we have done in parts of Alaska over our 221-
year history.
    Coast Guard operations in the Arctic region are not new. Nearly 150 
years ago, we were the Federal presence in the ``District of Alaska,'' 
administering justice, settling disputes, providing medical care, 
enforcing sovereignty, and rescuing people in distress. Our heritage is 
filled with passages of Coast Guardsmen who braved the sea and ice in 
sailing ships and early steam ships to rescue mariners, quash illegal 
poaching, and explore the great North. World War II ushered in the 
service's first icebreakers. In 1957, three Coast Guard cutters made 
headlines by becoming the first American vessels to circumnavigate the 
North American continent through the Northwest Passage. That mission 
was in support of an early Arctic imperative to establish the Distant 
Early Warning Line radar stations to detect ballistic-missile launches 
targeting the United States during the Cold War.
    The Coast Guard presence in southern Alaska, the Bering Sea, and 
Gulf of Alaska continues to be persistent and capable, matching the 
major population and economic concentrations and focus of maritime 
activities. The 17th Coast Guard District is responsible for directing 
the service's operations in Alaska with:
  --two sectors;
  --two air stations;
  --12 permanently stationed cutters and normally one major cutter 
        forward-deployed from another area;
  --three small-boat stations;
  --six marine safety units or detachments;
  --one regional-fisheries training center;
  --five other major mission-support commands.\9\
---------------------------------------------------------------------------
    \9\ U.S. Coast Guard, ``Protecting the Last Frontier,'' 
www.uscg.mil/d17.
---------------------------------------------------------------------------
    We ensure maritime safety, security, and stewardship in the region 
by conducting search and rescue, fisheries enforcement, inspection and 
certification of ships and marine facilities to ensure compliance with 
U.S. and international safety and security laws and regulations, and 
preventing and responding to oil spills and other water pollution.
    The Coast Guard strengthens U.S. leadership in the Arctic region by 
relying on effective partnerships with other Federal, State, local, and 
tribal governments and industry members. We are working with other 
Federal partners within the Department of Homeland Security, the 
military services and combatant commanders within the Department of 
Defense, the National Oceanic and Atmospheric Administration, and the 
Bureau of Safety and Environmental Enforcement within the departments 
of Interior, State, and Justice to achieve unity of effort within the 
interagency team at the port and regional level. And we rely on 
cooperation from international partners, be they permanent close allies 
such as Canada or our maritime counterparts in Russia and China, with 
whom we are developing ties.
    Although we have lived and served in southern Alaska for most of 
the Coast Guard's existence, our access to and operations in northern 
Alaska on the North Slope have been only temporary and occasional, with 
no permanent infrastructure or operating forces along the Beaufort or 
Chukchi seas. There are no deepwater ports there.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Throughout the history of the region, the Coast Guard's presence in the 
 North was often the only Federal presence. Today, the USCG Healy is a 
    salient element of the service's profile there, keeping busy on 
        missions ranging from scientific surveys to icebreaking.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 ``The Coast Guard strengthens U.S. leadership in the Arctic region,'' 
notes the author, ``by relying on effective partnerships. . . '' Here, 
 a Coast Guard MH-60 Jayhawk rescue helicopter lands on the tarmac at 
Kotzebue, Alaska, with an Army National Guard UH-60 Pavehawk coming in 
    close behind during a joint outreach mission to remote Alaskan 
                               villages.

    However, the acceleration of human activity in the northern Arctic 
region, the opening of the seas, and the inevitable increase in 
maritime activity mean increased risk: of maritime accidents, oil 
spills, illegal fishing and harvesting of other natural resources from 
U.S. waters, and threats to U.S. sovereignty. Those growing risks--
inevitable with growth of human activity--demand the Coast Guard's 
attention and commitment to meet our responsibilities to the nation.
                           preparing to lead
    Our first challenge is simply to better understand the Arctic 
operating environment and its risks, including knowing which Coast 
Guard capabilities and operations will be needed to meet our mission 
requirements. Operating in the Arctic region presents challenges to 
personnel, equipment, and tactics. What would be normal cutter, boat, 
or aircraft operations almost anywhere else become more risky and 
complex. The climate can be one of extremes many months of the year, 
with continuous sub-zero temperatures and more hurricane-force storms 
each year than in the Caribbean. It's hard on equipment: Industrial 
fluids freeze, metal becomes brittle, and electronic parts fail. It's 
also hard on people, who must acclimate to exaggerated daylight and 
darkness, harsh weather conditions, limited services, and isolation 
from family.
    One of the most significant challenges is the lack of Coast Guard 
infrastructure in key locations along the northern Alaskan coastline 
that will be needed to sustain even basic shore-based operations. Today 
we rely on partner agencies and industry to support any sustained 
operations. Cutters, aircraft, boats, vehicles, and people require 
constant mission support and logistics. We are already exploring 
requirements to establish temporary forward-operating bases on the 
North Slope to support shore-based operations, enabling temporary crews 
and equipment to deploy to support a specific operation, and then 
return to home station when complete.
    We have been improving our understanding by increasing operations. 
We conduct regular Arctic Domain Awareness flights by long-range 
maritime-patrol aircraft along the North Slope and over the Arctic 
Ocean, assessing aircraft endurance and performance and monitoring 
maritime activity. Since 2008, we have conducted Operation Arctic 
Crossroads, deploying personnel, boats, and aircraft to small villages 
on the Arctic coast such as Barrow, Kotzebue, and Nome. While there, we 
test boats for usability at these high latitudes and conduct flight 
operations. We also work closely with the Army and Air National Guard 
and the Public Health Service to provide medical, dental, and 
veterinary care to outlying villages. In return, we learn from their 
expertise about living and operating in this environment. These 
services invest in deepening our partnerships with and understanding of 
local peoples.
    Next, we must prepare by ensuring that Coast Guard men and women 
have the policy, doctrine, and training to operate safely and 
effectively in the northern Arctic region. We have relearned 
fundamental lessons in recent years about the need to be prepared when 
taking on new operational challenges. We will train personnel beyond 
qualification to proficiency to live and work for extended periods in 
the extreme cold and other harsh conditions there. We will ensure 
cutters, aircraft, boats, deployable specialized forces, and mission-
support personnel have the equipment, training, and support they 
require to succeed.
    Finally, we are working closely with other key Federal partners to 
lead the interagency effort in the Arctic. The Coast Guard has 
significant experience and success with speaking the interagency 
language, bridging the traditional divides between military and law 
enforcement at the Federal level, and synchronizing efforts between 
Federal, State, local, tribal, and private-sector stakeholders. 
Simultaneously a military service, a law-enforcement and regulatory 
agency, and an intelligence-community member that is part of the 
Department of Homeland Security, the Coast Guard is in a unique 
position to exercise leadership in this emerging maritime frontier.
                        prevention and response
    Coast Guard missions rely on the twin pillars of prevention and 
response. We will take actions to prevent maritime safety, security, 
and pollution incidents in the Arctic. In our regulatory role, we are 
working with the Department of the Interior to review oil-spill 
response plans and preparedness by the oil-and-gas and maritime 
industries prior to exploration activities, especially on the outer 
continental shelf. We are taking the lessons from the 2010 Deepwater 
Horizon disaster to ensure that type of incident does not happen again, 
especially in the Arctic. We regulate U.S. mariners and inspect vessel- 
and facility-security plans. When a marine casualty does occur, we will 
investigate and take appropriate action to prevent it from happening 
again.
    As a law-enforcement agency, we will provide security in the ports, 
coastal areas, and exclusive economic zone to enforce U.S. laws 
governing fisheries and pollution, while ensuring the security of 
lawfully permitted activities, including energy exploration, in the 
region. We will deploy cutters, boats, aircraft, and deployable 
specialized forces--maritime safety-and-security teams, strike teams, 
dive teams--when the mission demands.
    As a military service, we will enforce U.S. sovereignty where 
necessary, ensuring freedom of navigation and maritime homeland 
security. The Healy --our only operational icebreaker--and other ice-
strengthened cutters will patrol where they can safely operate to 
provide persistent presence on the high seas and maritime approaches to 
the United States.
    We are developing and will execute starting summer 2012 an Arctic 
Maritime Campaign with the objective of establishing a path forward for 
the Coast Guard to meet our responsibilities to the nation in the 
Arctic. This campaign will:
  --Define the required mission activities for the Coast Guard in the 
        northern Arctic region;
  --Determine capabilities (personnel, equipment, facilities) necessary 
        to plan, execute, and support operations there;
  --Identify available resources for the mission and resource gaps;
  --Fully prepare our service and Coast Guard personnel to safely and 
        effectively operate there.
    Initially, the Arctic Maritime Campaign will be a Coast Guard plan 
for service operations in coordination with other partners--a basic 
first step for any mission. From there, we will work to improve 
interagency coordination as activities and operations increase.
    My years at sea taught me many life lessons; chief among those is 
vigilance, the art of keeping a weather eye on emerging challenges so 
that the service can adequately prepare and take early and effective 
action to prevent and respond to trouble. As I scan the horizon, one 
area demanding our immediate attention is the Arctic. America is a 
maritime nation and an Arctic nation. We must recognize this reality 
and act accordingly. The Coast Guard is working to do its part. For 
more than 221 years, we have overseen the safety, security, and 
stewardship of our nation's waters. Our challenge today is to ensure we 
are prepared with a Coast Guard capable and ready to meet our 
responsibilities in the emerging maritime frontier of the Arctic.

     deg.Senator Landrieu. I welcome the Coast Guard men and 
women, citizens of Kodiak, and others who were able to join us 
today.
    Any given year, the Coast Guard saves approximately 3,800 
lives. It removed, last year, 166,000 pounds of cocaine in 
transit to the United States. It interdicted more than 2,500 
undocumented migrants attempting illegally to enter the 
country, and conducted more than 1,700 boardings of high-
interest vessels bound for the United States.
    Even more impressively, in an average month in Alaska, the 
Coast Guard conducts 51 search-and-rescue cases, conducts 161 
vessel boardings, saves or assists 74 people, services 59 aids 
to navigation, and responds and investigates at least 10 
pollution incidents, and monitors the transit of 25 tankers 
carrying more than 700 million gallons of oil safely through 
Prince William Sound, and ensures that more than 1.38 million 
pounds of explosives are safely transported through Alaska's 
maritime transportation network.
    Just an average day at work for the thousand men and women 
that wear the uniform proudly and support Alaska, our Nation, 
and the world.
    As I said, I am so pleased to join my dear friend and 
colleague and partner, Senator Lisa Murkowski. We not only 
serve on Homeland Security together, but we have served for 
many years on the Energy Committee together, and are excited 
about our adventures and opportunities in exploring resources 
for this Nation.
    But we are here today to discuss Coast Guard operations in 
Alaska, the strategic importance of the Arctic, and the 
challenges facing the Coast Guard in this region.
    Approximately 2,500 Coast Guard personnel support 
operations in Alaska, which encompasses 3.8 million square 
miles and more than 44,000 miles of coastline.
    Much of the Alaskan way of life occurs on the water. At 
times, this environment can be harsh and unforgiving. That's 
what makes it so important, I believe, for our subcommittee and 
others in the Congress to support the work of the Coast Guard 
here on the ground.
    Their many missions include fisheries enforcement, search 
and rescue, port security, and environmental response, and I 
would like to believe, in partnership with the oil and gas 
industry, oversight, yes; enforcement, yes; but a real 
partnership with the private sector to deliver the resources 
essential for our Nation.
    Not only has Senator Murkowski been a leading advocate, but 
Senator Begich, who is not with us today at the hearing but is 
at work in Alaska with other officials, touring another part of 
the State.
    We are pleased to have on our first panel Admiral Papp, 
Commandant of the Coast Guard. Our second panel, chosen by 
Senator Murkowski, is Dr. Mark Myers, vice chancellor for 
research at the University of Fairbanks; Merrick Burden, 
executive director of the Marine Conservation Alliance; and 
Bruce Harland, vice president, contract services, Crowley 
Marine. We are thrilled to have you all, and we'll call on you 
in just a moment, after our opening statements.
    The work of the Coast Guard, or the work the Coast Guard 
does in Alaska, is not unfamiliar to us in Louisiana. We, too, 
have a very large Coast Guard, very vibrant fishery, and 
extraordinarily robust oil and gas drilling off of our coast. 
In fact, 80 percent of the offshore oil and gas resources of 
the Nation come off the coast of Louisiana, Texas, Mississippi, 
and Alabama.
    So these assets and these challenges are very, very 
familiar to me.
    I would be remiss, Senator Murkowski, if I did not mention 
the special place the Coast Guard holds in my heart and in the 
hearts of the 4.5 million Louisianans that I represent, and 10 
million people along the gulf coast, because, Admiral, as you 
know, the Coast Guard was first on the job after Hurricanes 
Katrina and Rita, and rescued, at that time, 33,000 people, not 
over open water, where the Coast Guard had trained, but flying 
in and out of tall buildings, over and under electrical lines, 
literally rescuing people out of 14- and 20-foot floodwaters in 
the middle of the city. What an amazing vision for the Coast 
Guard, and they carried it out beautifully.
    Admiral, the people of Louisiana will always be grateful 
for the heroic efforts of the Coast Guard, along with our Cajun 
navy, as we say, and coasties, too, to help you in that effort.
    Let me hit just a few other highlights of the fiscal year 
2013 appropriations bill that Senator Murkowski helped me 
draft. With her help and input, we have been able to plus-up 
some of the Coast Guard assets, even in tight budget times. She 
and I believe that we need to direct more of the limited 
resources we have to support this arm of our military.
    With her help, our bill will include $10.36 billion for the 
Coast Guard, $282 million above the President's request. The 
bill provides targeted increases above the request to ensure 
Coast Guard personnel serving on the front line have the 
resources they need to accomplish these important missions. 
Some of the benefits that will come directly to the Nation and 
Alaska include: $620 million for the sixth national security 
cutter (NSC); $77 million for long-lead materials for the 
seventh NSC; $335 million for six fast response cutters (FRCs), 
two of which will be homeported here in Alaska; $25 million for 
the continued development of the offshore patrol cutter (OPC); 
$8 million for initial acquisition planning and design of a new 
polar icebreaker, a priority to both Senator Murkowski and 
myself. I'm sure she'll speak more about this in the coming 
minutes.
    And, $10 million is for military family housing. I want to 
give Admiral Papp a shout-out for his advocacy for housing 
issues, and particularly Linda Papp for her extraordinary 
advocacy on behalf of the Coast Guard families that live in 
very rural areas sometimes in our country, and don't have 
access to all of the bells and whistles, Senator, that some of 
our other communities enjoy. Housing is important for them, to 
have that kind of comfort and quality of life, not luxurious, 
but comforting for themselves and their children. As a mother 
and a wife, she most certainly understands that, and so do we.
    So we are really focused on upgrading the housing for our 
military, and hope we can report some good results.
    We have $69 million for construction and upgrades of shore 
facilities; $5 million to renovate the aircraft hangar in Cold 
Bay right here in Alaska; and $1.1 million for new fuel tanks 
in Sitkinak; $8 million to slow the retirement of one of our 
high endurance cutters (WHECs). I could go on.
    These are just some of examples of what we have invested in 
this budget, as soon as we can get it passed for the Coast 
Guard this year.
    A specific focus of ours today, in trying to conclude here, 
is the diminishing ice, or the retreating ice in the Arctic, 
and resulting implications for the Coast Guard's 
responsibilities, and the assets needed to respond.
    Scientists predict that the Arctic will be ice-free in the 
summer months by late 2030. This is truly an extraordinary 
change on our planet, and we must be ready for it.
    Rarely used shipping routes, such as the Northwest Passage, 
the Northern Sea Route, will likely be used more frequently. 
Exploration for natural resources is expected to intensify.
    The United States Geological Survey estimates that the 
Arctic accounts for about 13 percent of the world's 
undiscovered oil, and 30 percent of its undiscovered natural 
gas.
    The Commandant has been vocal about the trend of 
diminishing ice and what it means for the Coast Guard. I 
referred to the article he wrote. Let me quote again. He says: 
``This change from `hard' to `soft' water, growing economic 
interest and energy demands, and increasing use of the seas for 
maritime activities by commercial, native, and recreational 
users demand a persistent, capable U.S. Coast Guard presence in 
the Arctic region. Our mandate to protect people on the sea, 
protect people from threats delivered by the sea, and protect 
the sea itself applies in the Arctic equally as well as the 
Atlantic, Pacific Oceans and the Gulf of Mexico and the 
Caribbean Sea.''
    Unfortunately, today, two of our Coast Guard's three polar 
icebreakers, the Polar Star and the Polar Sea, have well 
exceeded their intended 30-year service lives and are not 
currently operational.
    The Polar Star is being refurbished to reenter service in 
2013 for another 7 to 10 years. The Coast Guard plans to 
decommission the Polar Sea.
    We all saw the importance of the Coast Guard's icebreaking 
capabilities this past winter when one of the active 
icebreakers, the Healy, which I am so proud was built by the 
strong and wonderful people in Avondale shipyards in my 
hometown of New Orleans, Louisiana, broke through the ice to 
deliver fuel to the people of Nome. Louisiana and Alaska have 
very strong partnerships, and I am so pleased that that ship 
was built at home in my State.
    Many comprehensive studies of icebreaker requirements have 
been conducted over the years. All have concluded that a polar 
icebreaking fleet is essential to the national interest.

                           PREPARED STATEMENT

    I want to thank Senator Murkowski for her tireless efforts 
advocating for the polar fleet, reminding us that we are an 
Arctic Nation. I'm very happy to turn the mike over to Senator 
Murkowski for her opening statement, and want to commit to 
her--she has heard me say this in Washington, but I wanted to 
come to Alaska to say it, that I want to be a partner with her 
to develop assets that our Nation needs to stay first in global 
competition, first in commercial, and first in proper natural 
resource development. Alaska is really that frontier and so is 
the Arctic.
    [The statement follows:]
             Prepared Statement of Senator Mary L. Landrieu
    Good morning. I call the subcommittee to order.
    I welcome the Coast Guard men and women, citizens of Kodiak, and 
others who were able to join us today. Saturday was the Coast Guard's 
222nd birthday, so I want to wish everyone in the Coast Guard a belated 
happy birthday. In 2011, the Coast Guard saved over 3,800 lives, 
removed over 166,000 pounds of cocaine in transit to the United States, 
interdicted over 2,500 undocumented migrants attempting to illegally 
enter the country, and conducted over 1,700 boardings of high interest 
vessels bound for the United States. In an average month in Alaska, the 
Coast Guard conducts 51 search-and-rescue cases; conducts 161 vessel 
boardings; saves or assists 74 people; services 59 aids to navigation; 
responds and investigates 10 pollution incidents; monitors the transits 
of 25 tankers carrying more than 700 million gallons of oil safely 
through Prince William Sound, and ensures that more than 1.38 million 
pounds of explosives are safely transported through Alaska's maritime 
transportation network.
    I am pleased to join my friend and colleague, Senator Lisa 
Murkowski, to discuss Coast Guard operations in Alaska, the strategic 
importance of the Arctic, and the challenges facing the Coast Guard in 
the region. Approximately 2,500 Coast Guard personnel support 
operations in Alaska, which encompasses 3.85 million square miles and 
more than 44,000 miles of coastline. Much of the Alaskan way of life 
occurs on the water, and the harsh and unforgiving environment makes it 
critical that our Coast Guard men and women have the resources to 
perform their many missions here, including: fisheries enforcement, 
search and rescue, port security, and environmental response. We are 
joined today by two panels of distinguished witnesses to discuss these 
matters.
    Our first panel includes:
  --Admiral Robert J. Papp, Commandant of the Coast Guard; and
    Our second panel includes:
    --Dr. Mark Myers, Vice Chancellor for Research, University of 
            Fairbanks;
    --Merrick Burden, Executive Director, Marine Conservation Alliance; 
            and
    --Bruce Harland, Vice President--Contract Services, Crowley Marine.
    The Coast Guard will forever be in my heart and in the hearts of my 
Louisiana constituents in light of its heroic efforts following 
Hurricane Katrina. The Coast Guard rescued over 33,000 of our citizens 
during the largest search and rescue mission in Coast Guard history. 
When Katrina hit, Admiral Papp was the Commander of the Ninth Coast 
Guard District, an area that covers the Great Lakes. To help in the 
response effort, he ordered the deployment of several hundred personnel 
under his command to the gulf region. I am forever grateful to him and 
the Coast Guard men and women who helped aid those in need following 
the hurricane.
    In May of this year, Admiral Papp testified before this 
subcommittee on the Coast Guard's budget request for fiscal year 2013. 
At that hearing, we were able to discuss some of the challenges facing 
the Coast Guard, including the need to recapitalize its aging fleet of 
ships and planes. That hearing helped the Senate Homeland Security 
Appropriations Subcommittee make key funding decisions for the Coast 
Guard's fiscal year 2013 budget. With the help of Senator Murkowski, 
the fiscal year 2013 Senate appropriations bill includes $10.336 
billion for the Coast Guard, $282 million above the administration's 
request. The bill provides targeted increases above the request to 
ensure that Coast Guard personnel serving on the front lines have the 
resources to accomplish their missions in fiscal year 2013 and in the 
future. Specific investments that will benefit the Nation and Alaska 
include:
  --$620 million for the sixth national security cutter;
  --$77 million for long-lead material for the seventh national 
        security cutter;
  --$335 million for six fast response cutters, two of which are 
        expected to be homeported in Alaska;
  --$25 million for the continued development of the offshore patrol 
        cutter;
  --$8 million for initial acquisition planning and design of a new 
        polar icebreaker;
  --$10 million for military family housing;
  --$3.1 million for 26 billets to enhance oil spill response 
        capabilities; and
  --$69 million for construction and upgrades of shore facilities, 
        including $5 million to renovate an aircraft hangar in Cold Bay 
        and $1.1 million for new fuel tanks in Sitkinak (pronounced 
        ``sit-ki-nak'');
  --$8 million to slow the retirement of one 378 foot high endurance 
        cutter until it can be replaced.
    A specific focus of mine today will be on the diminishing ice in 
the Arctic, the resulting implications on Coast Guard responsibilities, 
and the assets needed to respond. Scientists predict that the Arctic 
will be ice-free in the summer months by the late 2030s. Rarely used 
shipping routes, such as the Northwest Passage and Northern Sea Route, 
will likely be used more frequently. Exploration for natural resources 
is expected to intensify--the United States Geological Survey estimates 
that the Arctic accounts for about 13 percent of the world's 
undiscovered oil and 30 percent of its undiscovered natural gas.
    The Commandant has been vocal about the trend of diminishing ice 
and what it means for the Coast Guard. In an article he wrote earlier 
this year for the U.S. Naval Institute Proceedings Magazine, entitled 
``The Emerging Arctic Frontier'', he said:

    ``This change from `hard' to `soft' water, growing economic 
interests and energy demands, and increasing use of the seas for 
maritime activities by commercial, native, and recreational users 
demands a persistent, capable U.S. Coast Guard presence in the Arctic 
region. Our mandate to protect people on the sea, protect people from 
threats delivered by sea, and protect the sea itself applies in the 
Arctic equally as in the Atlantic and Pacific oceans and Gulf of Mexico 
and Caribbean Sea.''

    Unfortunately today, two of the Coast Guard's three polar 
icebreakers, the Polar Star and Polar Sea, have exceeded their intended 
30-year service lives and are currently not operational. The Polar Star 
is being refurbished to re-enter service in 2013 for another 7-10 years 
and the Coast Guard plans to decommission the Polar Sea. We all saw the 
importance of the Coast Guard's icebreaking capabilities this past 
winter when the one active icebreaker, the Healy, which was built by 
Avondale Shipyards in Louisiana, broke ice to help deliver fuel to the 
people of Nome.
    Many comprehensive studies of icebreaker requirements have been 
conducted over the years and all have concluded that a polar 
icebreaking fleet is essential to the national interest. The most 
recent study, commissioned by the Coast Guard and completed in 2010, 
concluded that a minimum of six icebreakers, three heavy and three 
medium, are required to fulfill Coast Guard statutory missions. 
However, while other countries like Russia and Canada are quickly 
building icebreakers to increase their presence in the Arctic, the 
United States has been slow to respond. The alarm has sounded, but we 
keep hitting the snooze button.
    Senator Murkowski and I discussed the need for new icebreakers at 
our budget hearing with the Commandant in May, and I want to continue 
that conversation today.
    I want to thank Senator Murkowski for inviting me to Alaska to 
chair this field hearing and thank the Coast Guard for providing us 
with such a dramatic location here at Air Station Kodiak. I now 
recognize Senator Murkowski for an opening statement before turning to 
our witnesses for their testimonies.

    Senator Landrieu. Senator Murkowski.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Senator Landrieu, thank you, first, for 
your commitment to come to Alaska to see and understand a 
little bit more about the role that the Coast Guard plays in 
our northern waters.
    In my time in the United States Senate, I can honestly say 
that there is no other colleague in the Senate that has more of 
a commitment and a passion to our Coast Guard than you, perhaps 
maybe me. But between the two of us, I think it is recognized 
that there is a level of advocacy and a commitment and a care 
for the men and women of the Coast Guard.
    So to be able to share some time in this hangar today, 
discussing what can be done to help those who are serving, and 
serving sometimes in some somewhat adverse conditions, giving 
them the assets, the training, and truly the attention that 
they need, this is something that I want to continue our work 
together.
    Your leadership has been critical, absolutely critical, in 
advancing some of the platforms that we need, some of the 
issues you mentioned, the housing, but the priority that you 
have placed on it is greatly, greatly appreciated.
    And I appreciate the fact that you have come to Alaska. It 
is not easy to get here from Louisiana. And to come out to 
Kodiak here today and spend a couple days within the State is 
greatly appreciated. We recognize that time is valuable, and 
the time that you spend away from your constituents to come and 
understand others is greatly appreciated.
    I want to also welcome you, Admiral Papp. It is indeed an 
honor and a pleasure to have you back here at Air Station 
Kodiak. I think this is the third summer now that you have made 
that commitment to come to Alaska to visit, to speak personally 
with, to observe, to better understand, and to truly lead. And 
your leadership is greatly appreciated.
    I also appreciate the commitment you have given to the role 
here in the Arctic, and your leadership has truly made a 
difference.
    I also want to recognize Admiral Ostebo, who is sitting 
behind you. Admiral Ostebo is head of the 17th District here, 
and he's doing a fine job for us. We appreciate your leadership 
as well, sir.
    I also want to recognize Linda Papp. Ever ready, always 
working, and speaking strongly for the Coast Guard families, 
which is greatly, greatly appreciated.
    And I do want to recognize some of the local officials that 
are here. Mayor Jerome Selby, Mayor Pat Branson, we have 
Representative Alan Austerman, some other folks from the 
community, I appreciate you being here.
    I think it is significant, Senator Landrieu, that we're 
sitting in this hangar. The last time I was here, I was able to 
greet some of the crewmen who had just concluded several pretty 
fantastic rescues. We have, again, some adverse conditions that 
we deal with, but the role that the Coast Guard plays here in 
Alaska from a search-and-rescue perspective is something that 
is, quote, ``made-for-TV''. And in fact, you do see it on TV.
    But it is the everyday role of these everyday heroes that 
are truly making a difference in the lives of Alaskans. So to 
be back in this hangar with so many is important.
    As you look around the room, those frames that you see up 
there are from vessels that have gone down, and the Coast Guard 
has played a role--the name over there, you can't see the full 
name. The Selendang Ayu was a pretty tough tragedy here in 
Alaska. So some of the history around the walls is worth 
noting.
    I do hope that as we leave this field hearing this morning, 
not only Senator Landrieu gets a little bit deeper appreciation 
of the role that the Coast Guard is playing, but how the other 
stepped-up activities in our northern waters is putting a level 
of responsibility on our Coast Guard.
    We're going to be hearing from Mark Myers with the 
University of Alaska about some of the changes on the ground, 
in the water, that we are seeing. Our other witnesses that are 
here today will speak to the commercial shipping interest that 
they're seeing, the level of activity that we're seeing in our 
northern waters that, again, puts the Coast Guard operations 
here in Alaska at a different level, beyond the protecting 
lives and property that we might see down here, but the 
position of enforcing our fisheries, preserving our living 
marine resources, promoting our national security, all 
exceptionally important within the mission.
    Now, I believe that the Commandant will describe in more 
detail the 17th District area of responsibility stretches from 
the North Pacific Ocean to the Arctic Ocean and everything in 
between. It is a lot of water. It is one of the biggest areas 
of responsibility within the Coast Guard.
    And along with the operational challenges that the Coast 
Guard currently faces, the future opening of the Arctic and 
increased activity that the Coast Guard currently faces in that 
area, I think we recognize there are challenges there. We 
appreciate that.
    But these challenges must be met by the administration with 
adequate budgeting for the resources necessary to get the job 
done. And it's tough to be talking about budgeting back in 
Washington, DC, right now, because things are tough and tight. 
We recognize that. But I think we also recognize that we cannot 
shirk from that responsibility and the requirements that are 
out there.
    Legacy Coast Guard assets in this State are aging. The 
current acquisition timeline leaves Alaska pretty far down the 
list for replacement of lost assets.
    In the last few years, we have seen the decommissioning of 
the Acushnet. This was a medium endurance cutter (WMEC) with 67 
years of service. It was homeported down in Ketchikan. The 
Acushnet patrolled the North Pacific and the Bering Sea. It 
could stay underway for weeks at a time.
    Now the replacement for the Acushnet is going to be one of 
the FRCs that you mentioned, Senator Landrieu.
    This is going to arrive in service in 2014, so we have a 
gap there. Another issue with the FRC is it will stay underway 
for only 5 days, which is the equivalent of our legacy patrol 
boats.
    So while the FRC will be a stop gap solution until the OPCs 
are in service, it will be years before an OPC is eventually 
homeported here in the State.
    In the meantime, our only WHEC, which is the Munro, which 
is stationed here in Kodiak, is quickly exceeding its useful 
life. It was commissioned back in 1971.
    The Munro has the ability to spend up to 30 days at sea. It 
was fairly recently brought to Alaska, back in 2007 from 
Alameda, California. Before then, we did not have a WHEC.
    In 2008, the Munro served a vital role in rescuing 20 souls 
from the sinking of the Alaska Ranger fishing vessel. Again, a 
pretty remarkable story.
    But unfortunately, in the not too distant future, I worry 
that we may again be without a WHEC, and multimission 
responsibilities here in District 17 could overwhelm the 
Alaska-based assets. The Bertholf, which we will have an 
opportunity to see tomorrow, one of the NSCs that will replace 
the WHECs, will continue to patrol the North Pacific and the 
Bering, but it's going to do so from Alameda, California.
    I am concerned about all of this because there was a recent 
Government Accountability Office (GAO) report found that 
reduced operational capacity of the WHECs has hindered mission 
performance. The report says that WHECs and the replacement 
NSCs are the only vessels in the Coast Guard capable of safely 
launching and recovering small boats and aircraft in the Bering 
Sea.
    Now, it takes about 24 days roundtrip for the Bertholf to 
travel the 3,000 nautical miles from Alameda to here in Kodiak. 
That is 24 days that could be spent underway in the Bering Sea.
    So I do have concerns, and I think it is appropriate to 
express them.
    Recently, the North Pacific Fishery Management Council met 
here in Kodiak, and it came to their attention the District 17 
is facing a 19-percent reduction this summer in the available 
major cutter days for fisheries law enforcement. The council is 
concerned with this reduction in cutter days because of the 
vital importance that the Coast Guard plays in enforcing the 
domestic fishing regulations and the international treaties. 
This is including the enforcement of the maritime boundary and 
the high seas driftnet violations.
    We had an opportunity to talk about the challenges that we 
face, the limited capacity that we have, and truly so many of 
the issues that are out there.
    But even without this reduction in cutter days, the Coast 
Guard already faces operational challenges of enforcing in this 
vast Bering Sea. Ten percent of this area within the Bering Sea 
is what they call a doughnut hole of international waters, 
where you have foreign factory trawlers who are quite often 
illegally overfishing.
    I believe the case is clear that America needs an NSC 
homeported here in Kodiak when the Munro is decommissioned.
    Now finally, and you touched on this briefly, Madam 
Chairman, this is the need, the desperate need, for icebreaking 
capacity.
    We saw last year how important it is to have polar 
icebreaking capacity to respond to mission needs. It was 
reported everywhere from the New York Times to the local radio 
station here the heroic efforts of the cutter Healy as she 
provided a path for the Renda to bring much-needed fuel to the 
community of Nome and the surrounding villages in northwestern 
Alaska.
    I think you are certainly aware, the Commandant is aware, 
of where we all stand on meeting additional icebreaking 
capacity, so I'm not going to take any more time here today, 
except to say that I am pleased that the administration has 
finally begun budgeting for a new polar icebreaker. I think we 
recognize it is far less than we all want, but we need to be 
working together to continue in the fiscal year 2014 budget a 
request for this critically important need.
    As I convey my comments, I recognize that it may appear 
that I am not satisfied with what I have here in District 17, 
with the assets. I am grateful for the Coast Guard, the men and 
women, and the presence of all that you do. But I also 
recognize that we ask an extraordinary amount of the men and 
women who serve us. And we have an obligation to provide you 
with those assets that allow you to do the job, do it well, and 
do it safely, so that you return home to your families.
    And I worry. I worry because that water is big and deep and 
broad, and many, many, many times dangerous. Whether you're on 
the sea or whether you are in a helo in the air plucking 
fishermen out of waves that are 20 feet high and gales that are 
blasting, we put you in harm's way, and we have an obligation 
to ensure that you have the assets to do what you do so 
honorably.
    So I look forward to working with my colleague, and with 
you, Admiral, and with so many of our leaders.
    And again I thank the Senator for her time and attention 
here in Alaska.
    Senator Landrieu. Thank you, Senator.
    And, Admiral, we will go right into your opening statement.
STATEMENT OF ADMIRAL ROBERT J. PAPP, COMMANDANT, U.S. 
            COAST GUARD
    Admiral Papp. Good morning, Madam Chair, Senator Murkowski. 
It is great to be back in Alaska. I think I have visited Alaska 
and the 17th Coast Guard District more often than any other 
location in our Coast Guard, and that is because of the 
importance of what we do up here, how vital the Coast Guard is 
to Alaska and the Arctic. And also, it is a very challenging 
operation area as well, and I want to stay in touch with what 
our people are doing up here, the challenges they are facing, 
and their needs.
    So I'm deeply appreciative to this subcommittee for its 
strong show of support through the budget process to make sure 
that our Coast Guard people are getting what they need. I also 
want to thank you for giving focus to Alaska and the Arctic, 
but more importantly, for your continuing support to our 
hardworking Coast Guard people.
    I've stated before it is my highest honor to be able to 
work with them, to lead them, and to represent them.
    And I also want to thank Captain Jerry Woloszynski, who is 
the base commander here, and Captain Melissa Rivera, who is the 
new air station commanding officer, for their support to put on 
this hearing today, and all my fellow coasties that are up here 
who have worked so hard in displaying the hospitality to all of 
us as we are visiting.
    I appreciate the opportunity to speak with you today and 
the chance this week to show you those hardworking men and 
women in action. It is important to see and hear firsthand, 
just like I have done over the last three summers, what it is 
like to live and serve in one of our most extreme and 
challenging areas of Coast Guard operations.
    I started out this weekend, and it has been a great Coast 
Guard birthday. I started out by going to Florida, where I 
presided at the commissioning of our newest patrol boat, the 
Richard Etheridge, produced in the great State of Louisiana, 
and then flew up immediately to Ketchikan, Alaska, where we had 
a chance to spend part of our Coast Guard birthday and attend 
the Blueberry Festival before proceeding over here and spending 
some of Coast Guard Day with our people here at Kodiak.
    We have, of course, traveled yesterday up to Barrow, so we 
could observe Coast Guard operations in the difficult 
conditions that we find 300 miles north of the Arctic Circle, 
and observe some of our people who are involved in Operation 
Arctic Shield, which is showing and demonstrating our expanding 
work up there, and demonstrating why it is so important for us 
to be there.
    During this 9-month operation, we have deployed the NSC, 
the Bertholf, and we are also celebrating Bertholf's 
commissioning of 4 years ago this week, and we will get a 
chance to see her and her crew in operation.
    I can report that our Coast Guard is on station and ready 
to meet today's traditional mission demands, like protecting 
Alaska's $3.1 billion fisheries industry, while we also prepare 
for the future.
    Activity in the most remote reaches of Alaska continues to 
evolve and grow, including planned drilling operations in the 
Chukchi Sea and the Beaufort Sea. Foreign tankers will be using 
the Northern Sea routes, which transit through the Bering 
Strait and into the Bering Sea, and cruise liners will continue 
to press even further into the Arctic.
    We must continue to work to refine our ability to provide 
and then support a persistent operational presence during this 
period of increased human activity or environmental risk.
    And that is why Operation Arctic Shield is so important to 
us. During this 9-month operation, we'll be deploying the 
Bertholf, as I said, and two of our 225-foot oceangoing, ice-
capable buoy tenders. We have also forward deployed two of our 
H-60 helicopters to Barrow and will test and deploy the spilled 
oil recovery system for the first time north of the Arctic 
Circle, and will continue to examine the requirements to 
protect living marine resources in the higher latitudes.
    We will also continue to evaluate the best methods by which 
to manage the waterways in the area.
    Given the challenges of operating in this region, we know 
we can't do it all by ourselves. This takes a whole-of-
government approach, and we're working very closely with other 
Federal agencies, and State, local, and tribal partners.
    We must also carefully consider the resource requirements 
needed to sustain operations in this environment.
    I'm reminded of our earliest days of operations in Alaska. 
I'm a student of history, and in the late 1800s, in fact 
starting in 1867, when our first cutters came up to Alaska, 
they plied these waters most often under sail, but they also 
had coal-fired engines.
    We didn't have a lot of infrastructure up here, and we even 
have historic records that show our crews going ashore in 
Unalaska and mining coal so they could keep their ships going.
    So while we didn't have permanent infrastructure, over 
time, because of the increased demand of deploying cutters up 
here, a coaling station was built in Dutch Harbor on the island 
of Unalaska and served for many years and still serves as a 
place for logistic support for our cutters operating in the 
Bering Sea.
    So we still have limited infrastructure in Alaska today, 
but we have an advantage over our predecessor cutters that were 
up in our early history. We now have remarkably capable cutters 
able to operate offshore with greater endurance and autonomy.
    Thanks to your continuing support and that of the 
administration, we are currently building a very capable 
offshore infrastructure, our NSCs. They don't rely upon a 
supply of coal to operate and conduct these missions. And in 
fact, these cutters can carry all the supplies they need to 
provide a sustained presence, and they can carry and launch 
both small boats and helicopters to conduct the full range of 
Coast Guard missions, and also can provide a robust suite of 
command and control communications capabilities.
    That is why the completion of the NSC fleet is critical to 
our ability to continue to meet our mission demands in this 
area, and why it has continuously been my No. 1 priority for 
our acquisitions money.
    And of course, you will see the Bertholf on Tuesday, and 
you will get a chance to experience firsthand why her 
tremendous capabilities are in such need up here in the Bering 
Sea.
    Additionally, with the support of the Congress and the 
administration, we are also making smart investments now with 
the fiscal year 2013 budget to ensure we are ready to operate 
effectively in the Arctic in the future. The fiscal year 2013 
budget provides funding to expand and upgrade the aviation 
facilities at Cold Bay, which you will also see this week. And 
it also initiates the acquisition of a new polar-class 
icebreaker.
    The budget also provides for operational funding for our 
medium polar icebreaker Healy, and it reactivates the Polar 
Star, so we can get her back into service in 2013.
    We remain committed to Alaska, as borne out by our 
investments for the future and our operations today, and our 
presence here each summer to make sure we are providing the 
type of resources that our people need to operate in this 
environment.
    And finally, I can't forget our hardworking coastguardsmen 
and their families who serve here, many in remote locations.
    I thank you for recognizing Linda, both of you. She has 
been working very hard, and I am very proud of her, because she 
is focused on housing concerns and childcare services for our 
families.
    Just during this trip alone, she has met with housing 
officers here and in Ketchikan, and I'm very proud to report 
that in Cordova, as you know, we recently constructed 26 brand-
new homes for our people to alleviate a housing shortage there.
    I'm committed to providing for the needs of the 1,600 Coast 
Guard active-duty families stationed throughout Alaska, and we 
appreciate your continued support, along with the 
administration, in making the welfare of our military families 
a top priority.
    In the Coast Guard, we work as a crew, but we serve as a 
family. We will continue to find that balance between 
maintaining our operations, recapitalizing our fleet and our 
infrastructure, and ensuring the needs of our Coast Guard 
families are being met. So it is with deep appreciation that I 
thank you for putting a spotlight on those needs, so we can 
continue to work together to make sure our Coast Guard people 
are getting the tools they need.

                           PREPARED STATEMENT

    So I thank you for the opportunity. I look forward to your 
questions.
    [The statement follows:]
              Prepared Statement of Admiral Robert J. Papp
    Chairman Landrieu, Ranking Member Coats, and distinguished members 
of the subcommittee, thank you for the opportunity to testify today. I 
am honored to join you in Alaska to discuss the Coast Guard's Arctic 
responsibilities and operations. This summer we are preparing for 
Arctic activity driven by the oil industry's planned drilling 
operations in the Chukchi and Beaufort Seas. Partnering closely with 
Federal, State, local, and tribal government partners, and working with 
industry as the regulated parties, the Coast Guard is ready for 
operations this summer in the Arctic with Operation Arctic Shield. The 
lessons we learn this year will inform our planning and strategy, to 
ensure we remain always ready to ensure the safety, security and 
stewardship of the emerging maritime frontier of the Arctic.
                      operation arctic shield 2012
    Arctic Shield 2012 is a three-pronged interagency operation in 
Alaska's coastal Arctic domain consisting of outreach, operations, and 
assessment of capabilities from February through October 2012. Outreach 
is comprised of delivering education, awareness and health services for 
Arctic communities and outlying native villages. Operations involve 
deployment of major cutter forces, air assets, communication equipment, 
and mission support to conduct the Coast Guard's missions. Assessment 
of capabilities involves an analysis of our front-line operations and 
mission support assets in Arctic conditions. Additionally, an oil spill 
contingency exercise in Barrow, Alaska, will test Coast Guard and Navy 
skimming equipment launched from a 225-foot Coast Guard buoy tender. 
Arctic Shield 2012 has been carefully tailored to deliver the 
appropriate set of capabilities to this remote area. I am very proud of 
our team in the 17th Coast Guard District for bringing the Arctic 
Shield plan to fruition.
    The following unclassified schematic outlines our planned force lay 
down for Arctic Shield 2012. The graphic demonstrates our key 
challenge--moving Coast Guard resources from our long-established bases 
in south Alaska to the emerging frontier of northern Alaska.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    For the first time, we have two MH-60 helicopters in Barrow 
standing the watch and ready to respond. This means that, readiness and 
weather permitting, we can meet a 30-minute launch window for imminent 
missions such as search and rescue, environmental protection and law 
enforcement. The following photo shows the MH-60s in their leased 
hangar in Barrow.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    We have deployed USCGC Bertholf, the first National Security 
Cutter, to the southern Arctic region, providing persistent operational 
presence, and command and control, in areas where we lack the permanent 
infrastructure of a coastal Sector. We have also deployed two light-ice 
capable 225-foot ocean-going buoy tenders to increase offshore 
operational capability in the region.
            the coast guard in alaska and the arctic region
    The Coast Guard has been operating in the Arctic Ocean since 1867, 
when Alaska was just a territory. Then, as now, our mission is to 
assist scientific exploration, chart the waters, provide humanitarian 
assistance to native tribes, conduct search and rescue, and enforce 
U.S. laws and regulations.
    In Alaska, Coast Guard aircraft and vessels monitor more than 
950,000 square miles off the Alaskan coast to enforce U.S. laws. We 
patrol an even larger area of the north Pacific Ocean to stop large-
scale high seas drift netting and other illegal fishing practices, 
including foreign incursions into the U.S. Exclusive Economic Zone. We 
also conduct maritime safety and environmental protection missions in 
the region.
    To protect the Arctic environment, we are engaging industry and the 
private sector to address their significant responsibilities for 
pollution prevention, preparedness, and response. Recognizing that 
pollution response is significantly more difficult in cold, ice, and 
darkness, enhancing preventative measures is critical. Those engaging 
in offshore commercial activity in the Arctic must also plan and 
prepare for emergency response in the face of a harsh environment, long 
transit distances for air and surface assets, and limited response 
resources. We continue to work to improve awareness, contingency 
planning, and communications. We are also actively participating in the 
Department of Interior-led interagency working group on Coordination of 
Domestic Energy Development and Permitting in Alaska, (established by 
Executive Order 13580), to synchronize the efforts of Federal agencies 
responsible for overseeing the safe and responsible development of 
Alaska's onshore and offshore energy.
    While prevention is critical, the Coast Guard must be able to 
manage the response to pollution incidents where responsible parties 
are not known or fail to adequately respond. In 2010, we deployed an 
emergency vessel towing system north of the Arctic Circle. We have also 
exercised the Vessel of Opportunity Skimming System (VOSS) and the 
Spilled Oil Recovery System (SORS) in Alaskan waters, but we have yet 
to conduct exercises north of the Arctic Circle. Both of these systems 
enable vessels to collect oil in the event of a discharge, however, 
these systems have limited capacity and are only effective in ice-free 
conditions. We plan on again testing and deploying the SORS in the 
vicinity of Barrow in a Field Training Exercise this summer during 
Arctic Shield 2012.
    Fisheries are also a major concern. The National Marine Fisheries 
Service, based upon a recommendation from the North Pacific Fisheries 
Management Council, has imposed a moratorium on fishing within the U.S. 
Exclusive Economic Zone north of the Bering Strait until an assessment 
of the practicality of sustained commercial fishing is completed. The 
Coast Guard will continue to carry out its mission to enforce and 
protect living marine resources in the high latitudes.
    We are employing our Waterways Analysis and Management System to 
assess vessel traffic density and determine the need for improved aids 
to navigation and other safety requirements. We are also moving forward 
with a Bering Strait Port Access Route Study, in coordination with our 
international partners, which is a preliminary analysis to evaluate 
vessel traffic management and appropriate ship routing measures.
    The Coast Guard continues to support international and multilateral 
organizations, studies, projects, and initiatives. We are actively 
working with the Arctic Council, IMO and their respective working 
groups. We are leading the U.S. delegation to the Arctic Council Oil 
Spill Task Force that is developing an International Instrument on 
Arctic Marine Oil Pollution Preparedness and Response. We are also 
conducting joint contingency response exercises with Canada and we 
maintain communications and working relationships with Canadian and 
Russian agencies responsible for regional operations including Search 
and Rescue (SAR), law enforcement and oil spill response. We maintain 
bilateral response relationships with Canada and Russia, and last month 
we hosted representatives from the Russian State Marine Pollution 
Control Salvage and Rescue Administration (SMPCSRA) to sign an expanded 
memorandum of understanding and joint contingency plan to foster closer 
cooperation in oil spill response. We will continue to engage Arctic 
nations, international organizations, industry, academia and Alaskan 
State, local, and tribal governments to strengthen our partnerships and 
inter-operability.
    Our engagement with Alaska Native Tribes continues to be highly 
beneficial. Our continued partnership has made our operations safer and 
more successful. We are working hard to ensure tribal equities are 
recognized, and that indigenous peoples and their way of life are 
protected. We look forward to continuing to strengthen our partnerships 
with our Alaskan Native partners.
    The Coast Guard continues to push forward and assess our 
capabilities to conduct operations in the Arctic. Since 2008, we set up 
small, temporary Forward Operating Locations on the North Slope in 
Prudhoe Bay, Nome, Barrow and Kotzebue to test our capabilities with 
boats, helicopters, and Maritime Safety and Security Teams. We also 
deployed our light-ice capable 225-foot ocean-going buoy tenders to 
test our equipment, train our crews and increase our awareness of 
activity. Additionally, each year from April to November we have flown 
two sorties a month to evaluate activities in the region
    Looking ahead, the Coast Guard's regional mission profile has 
evolved significantly. Increasing human activity will increase the 
significance and volume of maritime issues, such as freedom of 
navigation, offshore resource exploration, and environmental 
preservation.
          the coast guard in context of national arctic policy
    U.S. Arctic policy is set forth in the 2009 National Security 
Presidential Directive (NSPD) 66/Homeland Security Presidential 
Directive (HSPD) 25. For the past 4 years, as we are today with Arctic 
Shield 2012, we have been conducting limited Arctic operations during 
open water periods. However, we face many challenges. Some Arctic 
operations demand specialized capabilities and personnel trained and 
equipped to operate in extreme climates. Our assessments of the 
Nation's requirements for operating in ice-laden waters consider 
infrastructure requirements to support operations, and requirements for 
personnel and equipment to operate in extreme cold and ice.
    Given the scope of these challenges, we have been conducting oil-
in-ice research since 2010 to evaluate, develop, and test equipment and 
techniques that can be used to successfully track and recover oil in 
any ice filled waters, and have explored promising technologies, such 
as heated skimmers. The Coast Guard's strategic approach is to ensure 
we pursue the capabilities to perform our statutory missions so we can 
ensure the Arctic is safe, secure, and environmentally sustainable. 
This strategy is consistent with our Service's approach to performing 
its Maritime Safety, Security and Stewardship functions.
                               conclusion
    Arctic Shield 2012 is an appropriate plan to meet projected mission 
requirements this year. Moving forward, we will continue building our 
strategy using a whole-of-government approach that will inform national 
dialogue and policy development for this critical region.
    While there are many challenges, the increasingly open Arctic Ocean 
also presents unique opportunities. We look forward to working with the 
Congress on how our Coast Guard can continue to support our national 
Arctic objectives, protect its fragile environment and remain Semper 
Paratus--Always Ready in this new ocean.
    Thank you for the opportunity to testify today. I look forward to 
your questions.

                      ARCTIC: COAST GUARD MISSION

    Senator Landrieu. Thank you. I will start out with about 5 
or 6 minutes of questions, turn it over to Senator Murkowski. 
We may go through a second round, because there are some 
important things we would like to get on the record.
    We have all mentioned this in our opening statements, but I 
would like to give you an opportunity to take 1 minute to 
describe in even more detail for the subcommittee how the 
retreating Arctic ice will dramatically change the Coast 
Guard's responsibilities, looking into the future. The 
northward migration of fish stock potentially; offshore oil 
exploration sites, which you mentioned; the extraordinary 
increase in commercial shipping that I think we have not really 
contemplated or really fathomed how significant that could be; 
and how these developments are affecting Coast Guard plans for 
your budget, given the pressures on your budget, yet at the 
same time this growing very new and extraordinary, 
unprecedented, opening of these waters.
    If you could just hit a few more details on that, so that 
we can try to grasp the real needs that you have.
    Admiral Papp. Thank you, Chairman.
    Many people, as I travel around the country, ask the same 
question. The good thing is there is a lot of interest in the 
Arctic now. I think the work of this subcommittee, the two of 
you, some speaking engagements I have had, are causing people 
to ask the questions now.
    And when I try to relate this to a landsman, someone who is 
from the interior of the country who doesn't quite understand, 
is to think about if your city, or your county, or your parish 
incorporated a new portion of land or gained some additional 
space and area, but you never increased your police force or 
you never increased your fire department. They would take on 
added responsibilities, added burdens, and they would have to 
spread the existing resources a little bit thinner in order to 
accomplish the mission.
    So up here in the Arctic--and first of all, this country, 
the United States, has the largest maritime exclusive economic 
zone in the world, 3.3 million square miles of exclusive 
economic zone. And fully a third of that is here in Alaska.
    When the ice was covering the Arctic most of the time, 
there was no human activity. We didn't have to deploy any Coast 
Guard resources up there. But now during the summer months, 
when we are having much more open water, soft water, as I refer 
to it in the article, we have responsibilities up there. We're 
the maritime law enforcement, first responder service for this 
country. So we have the authorities; we have the 
responsibilities; and we need to set priorities and distribute 
our resources up there to take care of an emerging mission and 
operation in those waters.
    So, with no significant increase in our resources right 
now--in fact, sort of a little bit of a budget that is reducing 
some of our operational capability and capacity, what we are 
doing is we are making reasoned decisions across our mission 
sets and deciding where our highest priorities are.
    So, obviously, our WHECs and now our NSCs are used for 
fisheries, search and rescue, law enforcement, drug 
interdiction, and migrant interdiction. We still have all those 
responsibilities, but we are deploying resources up here in the 
summertime to account for the increased human activity.
    Most of the year we have one WHEC in the 17th Coast Guard 
District. As we speak today, we have three under the tactical 
control of Admiral Ostebo. The Rush, one of our WHECs, is 
prosecuting a high-seas driftnet case, almost all the way over 
to Japan right now, because they have been pursuing this 
vessel.
    We have the Munro, which is patrolling the maritime 
boundary, protecting the fisheries in the Bering Sea.
    And the Bertholf will be on her way up to the Arctic to be 
up there on standby for operations that are occurring off the 
North Slope.
    So it is like I always tell people, the Coast Guard doesn't 
have resources to do 100 percent of every mission that we have, 
so what we do is we make reasoned decisions based on risk and 
priorities on a daily basis, and allocate those ships and 
aircraft that we do have to what we consider to be the highest 
mission. And right now, the Arctic is one of our highest 
missions.

                       ARCTIC: DRILLING BY SHELL

    Senator Landrieu. Thank you. Let me put this into the 
record, which I think may be shocking to people from Alaska 
that were focused but maybe not as focused as we were in the 
gulf when this is happening, but as you all know, in 2010, 2 
years ago, the Deepwater Horizon exploded in the gulf.
    Now, we drilled 40,000 deepwater wells relatively safely in 
the Gulf of Mexico. I like to say, as an advocate for the 
industry, but also for good environmental practices, that until 
the Deepwater Horizon, there was more natural seepage of oil 
into the ocean than oil ever spilled from a rig. The Deepwater 
Horizon blew those numbers up and put 5 million barrels of oil 
into the gulf.
    It may be shocking, Senator, to think about this, but 
47,000 personnel and 7,000 vessels responded to that accident. 
I mean, we're sitting in the largest airbase here, and we only 
have 1,000 personnel. I don't think you have nearly 7,000 
vessels anywhere close. The Deepwater Horizon response had to 
be done immediately.
    I think the Nation has to really come to grips with the 
exploration opportunities for oil and gas, the great need of 
the Nation to have our own domestic resource, but the extra 
responsibility that comes with that to provide the vessels and 
the manpower to take care of something if, like in that 
situation, something went terribly wrong.
    So could you talk for 1 minute about Shell's hopes to begin 
exploratory drilling? Give us just a little bit of an update 
about what is going on, and how you and the Coast Guard plan to 
be at the ready in the event that something terrible happened.
    We hope it doesn't. We know the technology is good. We know 
there are containment measures.
    But like every industry, you have to have some fallback 
safeguard, and the Coast Guard is it.
    Admiral Papp. Yes, ma'am.
    Taking lessons learned from Deepwater Horizon, I think 
there are some things that are directly applicable to the 
challenges of drilling up in the Arctic. We have had a chance, 
along with the Department of the Interior, to review the 
response plans that Shell has put forward.
    When Deepwater Horizon occurred, the drill rig, and that 
was a production well, but the drill rig was out there and 
basically was there by itself, for the most part.
    Shell is going to be drilling in much shallower water, 
about 150 feet as opposed to 5,000 feet. You don't necessarily 
have to have just remotely operated vehicles up here. You can 
actually put divers down.
    And Shell is going to have up there 22 vessels that are all 
designed either as ice vessels, as anchor vessels, as skimmers, 
response vessels. They will have everything in place and ready 
to go in an overabundance of caution, in case something 
happens.
    First of all, looking at it from a layman's point of view, 
it is a much easier operation in 150 feet of water. And they 
believe that the reservoirs that are up there are under much 
less pressure than down on the gulf.
    So to a certain extent, you're dealing with apples and 
oranges. But even saying that, we're looking at the worst-case 
discharge possibility, and I think Shell has well-prepared for 
that. The Coast Guard has had an opportunity to review their 
response plan, along with the Department of Interior, the 
Bureau of Safety and Energy Enforcement (BSEE).
    And all of us will need to sign off on that and approve 
that before they start drilling.
    Most of their vessels are here already. They do have one 
vessel, which is an Arctic containment system, which is their 
tertiary response system in the unlikely event of a spill. That 
is still down in Bellingham, Washington, right now, going 
through review by the American Bureau of Shipping and our Coast 
Guard inspectors. There's still a work list of things to be 
done on that before we can certify that as safe to operate.
    And until the Arctic Challenger is released and gets up 
here, they will have to wait until that drilling begins. But 
they have primary, secondary, and tertiary systems to deal with 
any possible discharge up there.
    And, quite frankly, I have to say I am impressed with the 
amount of effort, work, and commitment of resources that Shell 
has done.

                 POLAR ICE BREAKERS: NUMBER OF VESSELS

    Senator Landrieu. Thank you.
    My final question for this round, again, is to focus on the 
polar icebreakers. It is a very important investment and 
significant investment that our country is going to have to 
make. A recent study sanctioned by the Coast Guard, named the 
``High Latitude Study'', calls for a minimum of three heavy 
polar icebreakers and a minimum of three medium polar 
icebreakers.
    How many new heavy polar icebreakers does the Coast Guard 
intend to procure? What would be the future implications for 
the budget? And if you could comment on what some of our 
competitors, China and Russia, are doing in this area, and 
really how far behind we are right now in this initiative?
    Admiral Papp. Yes, ma'am.
    First of all, I need to focus on what we can do today to 
make sure we have icebreaking capability and capacity for our 
country.
    In the law, the Coast Guard is responsible for maintaining 
our icebreaker fleet. And as I stated, we are in woeful 
condition right now. Healy is the one bright spot, because 
Healy is only about a dozen years old and is in good shape. And 
thank goodness we had that ship to call upon last year when we 
had the situation up in Nome.
    You both are fully aware of the dreadful condition of Polar 
Sea and Polar Star. They are well past their service life, very 
difficult and expensive to maintain. And I have had limited 
funding in order to be able to deal with them.
    The bright spot there is the operating money has been 
transferred back into the Coast Guard's budget in fiscal year 
2013 from the National Science Foundation, which will give us 
sufficient funds to operate Healy properly and to operate one 
of the Polars.
    We also received some money in past budget cycles to put 
Polar Star back into service. Polar Star is in the shipyard 
down in Seattle right now undergoing renovation, and we will 
have her back in service in 2013.
    So that'll give us one heavy breaker and one medium 
breaker, and that is my bridging strategy over the next 
probably decade until we get the new polar icebreaker built. 
And once again, I look at that optimistic----
    Senator Landrieu. How much do those new polar icebreakers 
cost, approximately?
    Admiral Papp. We are estimating anywhere between $800 
million to $1 billion, looking across the world at the price 
that we see in other countries and what Canada is allocating to 
build their new icebreakers.
    Senator Landrieu. Do you know how many Canada has, how many 
Russia has, and how many China has?
    Admiral Papp. I would have to get back to you with the 
exact numbers for the record.
    [The information was not available at press time.]
    Senator Landrieu. They have more than we do?
    Admiral Papp. Absolutely. Russia has in the neighborhood of 
a dozen heavy icebreakers. Canada, I believe, has four right 
now heavy icebreakers. And of course, we have the two, but they 
are out of service right now. We are rapidly working to get 
Polar Star back and active.
    Senator Landrieu. I'm going to turn it over to Senator 
Murkowski, but one of the challenges that our subcommittee has, 
and the Senator and I have talked about this publicly and 
privately many times, is the Federal Government requires us to 
basically pay cash up front for these investments. When we 
build an aircraft carrier, when we build a billion-dollar ship, 
there has to be a better way to do this, because we have to 
take that money out of the Coast Guard budget. We have to find 
the money in the Coast Guard budget to build this polar 
icebreaker, this new fleet.
    We're going to have to figure out a better way, Senator, to 
do that.
    I'm going to ask, when the Senator is finished, one or two 
more questions about that. But there might be some partnerships 
with the private sector, there might be some foreign 
partnerships, allies, that we can maybe share some of these 
expenses with. There has to be some way we can, particularly 
with the crunch that is coming to our budget, figure out a way.
    I know lots of people like to say we have to do more with 
less, but sometimes you just can't do more without more. I 
think this is an example of what we're running into here.
    And I turn it over to you, Senator.

                        OPERATION ARCTIC SHIELD

    Senator Murkowski. Senator Landrieu, I appreciate you 
focusing so much of your questions on the issue of icebreaker 
and icebreaking capacity. It is extraordinarily important to us 
here in the State, but it is extraordinarily important to us as 
a Nation. We are an Arctic Nation. And as an Arctic Nation, to 
know that we do not have an icebreaker that is a polar-class 
icebreaker, a heavy icebreaker, given all that is happening, is 
really quite remarkable.
    And, Commandant, you and I have had an opportunity to 
discuss the situation with the Healy last year and how close we 
were as a Nation to not even having the Healy accessible to us, 
that you were in a situation where you effectively had to turn 
down a request to send the Healy down on a mission to 
Antarctic.
    Had you made the decision another way, when the people of 
Nome needed help, needed assistance at a very difficult time, 
we would not have been able to provide the level of assistance, 
and to help those people out, because our one medium-strength 
icebreaker would not have been available. So think about the 
what-ifs.
    And it's not a situation that I think we want to be in. 
Again, we are in Arctic Nation, but sometimes you wouldn't know 
it when you look at the assets.
    I had an opportunity to be with you Barrow yesterday, to 
talk with some of the Coast Guard's men and women that are up 
north right now, working that Barrow mission. And I found it 
interesting that some of those that I was speaking with 
yesterday were coming back today, coming back home.
    So they are working up north; they are living down here. 
And for those who haven't checked their maps, the distance 
between the Barrow and Kodiak is 820 nautical miles.
    So when we appreciate how we are going to have a Coast 
Guard that will be serving the area with the Arctic Shield 
Operation, I think it is important to recognize that there's a 
financial strain here. To move these men and women back and 
forth is going to be challenging. To move the assets back and 
forth is going to be challenging.
    If you're staging out of a Dutch Harbor, it is 1,125 miles. 
So whether you're moving the Bertholf up or you're going by 
helicopter, you're going by C-130, I think it is a recognition 
we're dealing with some considerable issues with the distance. 
And that leads to cost as well.
    I would like you to address just generally how the Coast 
Guard's preparedness in moving forward with Operation Arctic 
Shield this summer with the assets that we currently have--we 
mentioned the Bertholf is moving her way up north. I think you 
mentioned two H-60s that would be moving back and forth.
    But as we talk about how we manage the waterways, how we 
move the necessary personnel, can you describe to Alaskans how 
well-manned, how our capabilities are at this point for the 
operations this summer?
    And then if you can then address the practical reality that 
we do not have a polar-class icebreaker, whether or not the 
mission capability is compromised at all, because we do not 
have that icebreaking capacity for whether it is Arctic Shield 
or the other mission sets that the Coast Guard has here.
    Admiral Papp. I have three levels of concerns. First of all 
is tactical. What are we doing this summer on the basis of that 
activity that is up there? What are we doing to prepare 
ourselves for perhaps the next decade question? And then what 
is the long-term plan up there?
    The President, through directives, has challenged all of 
Government to look at the Arctic and start thinking about and 
planning for what we need to do in the future. And because of 
the Coast Guard's broad authorities and responsibility, we are 
taking that very seriously.
    We have devoted staff to this effort. And we have also 
devoted--even though Arctic Shield, this is the first time 
we're doing that operation. We did something called Arctic 
Crossroads for 3 years before that. We have known that our 
activity is going to increase up there, so we have been taking 
our equipment up, experimenting, seeing how it performs, and 
trying to learn more about the operating environment as the 
activity starts to flow up toward the North Slope.
    Another important aspect is getting to know the people up 
there. That is their world. So the people who inhabit the 
villages, we have been engaged in outreach with them, to help 
us understand the culture and the environment up there, because 
they have literally thousands of years of experience and 
history with the operating environment, and that helps us.
    So for right now, we are well-prepared, because like we 
always do traditionally, we have multimission assets that we 
can deploy that are very capable and that are sufficient for 
the level of human activity that is going on this summer and 
perhaps for the next three or four summers.
    But as we finish up Arctic Shield this year, we will do a 
hot wash of that entire operation, and decide what went well, 
what didn't go as well, what sort of resources we might need 
for the next year. Then we can begin that planning evolution.
    At the same time, that feedback will go back to Washington 
to our staff that is working at headquarters, developing our 
Arctic strategy, our long-range strategy for what we need to do 
up here. And that will inform our future budget years, how we 
start planning for resource proposals for perhaps more 
permanent infrastructure.
    As was noted during the opening statement, we don't expect 
it to be ice-free during the summertime probably until about 
2030. But it is still going to freeze up during the wintertime. 
And there will be ice that we will have to deal with during 
certain periods of the year.
    So what we need during those periods of the year when the 
ice is there is some sort of short access that can only be 
provided by an icebreaker.
    So our multimission assets, our helicopters, our fixed-wing 
aircraft, the NSC, these are all very versatile assets that we 
can apply during the temporary times that there is human 
activity up there. But there'll be other times when things 
start freezing up, as happened last fall with Nome, that we 
need to have that assured access of an icebreaker.
    I wouldn't say I am comfortable at this point, but we do 
have Healy that is on call. And as I said, by next year, we 
will have Polar Star back in service, which will give us two 
icebreakers. Not an abundance of resources, but enough that 
will make me comfortable that we will be able to respond to the 
types of challenges that we are facing over the next 10 years 
as we continue to work our way forward to determine the other 
resources that we need.

                   CUTTERS: REPLACING LEGACY VESSELS

    Senator Murkowski. Until the Polar Star is back in the 
water, I sure hope that we are able to keep Healy up here and 
not send her down on a research mission to Antarctica.
    That is just my ask. I am sure that you have thought of 
that as well.
    I mentioned in my opening remarks that the legacy vessels, 
and how we deal with what I would describe as the gaps that are 
out there. Two of the vessels that are covered in this GAO 
report are homeported here. I mentioned the Munro, the WHEC, 
but we also have the Alex Haley that is here.
    The Alex Haley is 41 years old. The Munro is 45 years old.
    Can you give me some sense as to what the plans are to 
replace these legacy vessels?
    Admiral Papp. Yes, ma'am.
    Fortunately, with the support of the administration and the 
strong support shown by this subcommittee, the national 
security project is moving forward. We will be prepared to 
award the contract for NSC No. 6 within the 2013 budget as soon 
as we have an approved budget. And we already have long-lead 
materials on order for No. 6.
    And as was indicated with the opening statement, for the 
fiscal year 2013 budget, there has also been long-lead money 
put in there for No. 7, which should help us along as well.
    We hope to build out eight of the NSCs, which will replace 
the 12 WHECs that we currently have right now. And then we will 
immediately get into what is called the offshore patrol cutter, 
or the OPC.
    We just got out a request for proposal on the OPC, and that 
project is on schedule. And we hope to be able to award the 
construction for the first OPC in the fiscal year 2015 budget.
    So ultimately, though, we will have--today we have 41 major 
ships. They will be replaced by 33 major ships when the project 
is done.
    But they will be more capable ships. But they won't be able 
to be in as many places as the legacy fleet.
    Having said that, the legacy fleet, many of them were only 
getting about two-thirds of the underway days that we 
programmed for, because of major casualties and breakdowns.
    So the best solution is to get these new ships built as 
quickly as possible, because they will be more reliable and 
substantially more capable than the ships they are replacing.
    Senator Murkowski. I mentioned also in my statement about 
the loss of underway days, the importance of these cutters 
actually being underway, conducting the mission, and the fact 
that the outside cutters are spending 25 to 30 days underway 
every deployment as they transit from, in this case, from 
California up here.
    So the desire, the importance, to have these vessels 
homeported here I think it is an issue I think we look at as we 
try to address how the mission is fulfilled.
    Do you have any sense in terms of when the decommissioning 
of the Munro or the Healy may come about?
    Admiral Papp. I am trying to keep them going as long as we 
can.
    Senator Murkowski. I appreciate that.
    Admiral Papp. If my recollection is correct, Munro is the 
youngest of our WHECs and, as you note, is in excess of 40 
years old.
    A lot of people, when you speak to our citizens and you say 
40, 45 years old, they don't perceive that as being very much. 
But in the life of a ship, that really makes it well beyond 
senior citizen status.
    The Navy's service life is usually about 25 years for a 
ship. We in the Coast Guard work our ships very hard in very 
challenging and very demanding conditions. So these 12 WHECs 
that we had have had a pretty rough life, spending a lot of 
time in the Bering Sea.
    And you have what amounts to--because they were built in 
the 1960s, there is a lot of 1950s technology that is still on 
these ships. Many components that you just can't get spare 
parts for nowadays unless they are hand manufactured.
    So when we have a breakdown, part of the problem is it 
takes us so long to get replacement parts and put them back 
into service that we lose those underway days and our 
effectiveness out there.
    Senator Murkowski. I appreciate the need, the desire, to 
get our new vessels on, but, again, I'm worried about the gaps, 
where we have ships that are decommissioned without that 
replacement vessel on-site in the water.
    And I think those that rely on our Coast Guard are looking 
very critically at the timing as well. So I just put that out 
there.
    Madam Chairman, I probably have a couple more, but I will 
turn it to you.
    Senator Landrieu. I would like to follow up on this 
technology issue.
    I had the privilege, the responsibility and privilege, to 
go down to Guatemala as chair of the Homeland Security 
Committee and look at some of the drug interdiction situations 
down there. I have to just say for the record, it is shocking 
to see the technology that the drug cartels have.
    New materials, submarines that are undetectable, running 
drugs from Mexico through Guatemala into the United States, and 
we are operating our boats, Senator, with 1950s technology.
    I mean, we are trying to keep up with other countries. We 
also have to keep up with the drug cartels. I know that, 
Admiral, you were restricted in your budget, and the Senator 
and I have some restrictions. But where there's a will, there 
is a way. We are going to have to find a way to get the assets 
for this Nation that we need to protect our homeland and to 
monitor the great industries that we have responsibility for 
that produce wealth and opportunity for our country.
    It is very concerning to me, and I want to ask you this, 
because I'm trying to really understand, as we change our 
fleets, how can you sort of compare the OPCs for operations in 
Alaskan waters, how will the capabilities compare to the NSC?
    Can you just explain that, and make sure that we are 
building the kind of ships that Alaska needs? Because the needs 
of the Gulf of Mexico are going to be a little bit different, 
of course. Our waters are a little tamer, as we don't, of 
course, have any ice anywhere around. Although we can have 
terrible storms and hurricanes, I want to make sure that our 
country is building the right kinds of ships for the east 
coast, the west coast, the gulf coast, and for Alaska.
    So do you have any concerns at all that the plans are not 
providing the assets that Alaska and our Arctic boundaries 
need?
    Admiral Papp. Ma'am, when we finish this shipbuilding 
project, we'll basically have two major cutters, the NSC and 
the OPC.
    Today we have two classes. We call them the WHEC and the 
WMEC.
    Our challenge is the WMECs that we have right now are 
incapable of operating in the Arctic and the Bering Sea. They 
cannot take the seas. We can't launch small boats, we can't 
launch helicopters from them, because they just can't take the 
conditions that are found up in the Bering Sea and Gulf of 
Alaska.
    Consequently, we moved all our WHECs a number of years ago, 
took them off the east coast, and moved them to the west coast, 
because, particularly for Alaska patrol, Bering Sea patrol, the 
WHECs are the only ships that we have been able to use year-
round up here.
    When we get to this new fleet, in the requirements that we 
put out for the OPC, which is the WMEC replacement, we put 
requirements in there for it to be able to operate, launch 
small boats, land and launch helicopters in sea state five, 
which will allow it to operate in the Bering Sea.
    So there'll be times when we are able, in the future, even 
though we will have only a reduced number, 8 instead of 12, the 
high-end ships will have the opportunity, the option, to send 
the OPC up here as well.
    In fact, we have plans to station two of our OPCs up here 
in Alaska, hopefully here at Kodiak.
    So that will give us much more versatility in where we can 
deploy those. Right now, there are only, basically, 12 ships 
that we can send up here. When we get the new fleet built out, 
any of the ships we have in those 33 will be able to come up 
here.
    Obviously, in the worst weather, you want the NSC up here, 
because that gives us our best capability for the conditions 
that are found up in Alaska.

                POLAR ICEBREAKERS: LEASING PROS AND CONS

    Senator Landrieu. I want to say that we're getting some 
pushback, Senator, from some people in Washington that think 
that the Navy is the only operational group that should have 
these very large ships. But I want to go on record strongly, 
and I'm a very big supporter of the Navy and the need for them 
to have the kind of ships that they need, but we just cannot 
patrol waters--we are not patrolling waters within just 15 
miles, as you know, of our coastline.
    We have up to 200 miles as our economic zone. Under the Law 
of the Sea Treaty, if we can ever get that resolved, we may 
have up to 600 miles, I understand, here off of the coast.
    So this is not just patrol boats going up and down a few 
miles off the coast. These boats need to be seaworthy and have 
a very different mission, of course, than the Navy, but they 
have to be big and strong and able to maintain.
    My last question, and we talked about this, Commandant, 
about the pros and cons of having the private sector build an 
icebreaker and lease it back.
    Both the Senator and I are very concerned about not getting 
one or two but several, and getting them much more quickly than 
the plans that we have in place. I think you are making the 
best lemonade you can out of the sort of lemon situation that 
you have been given, but what are the pros and cons of having 
the private sector build an icebreaker, leasing it back to the 
Coast Guard?
    I know there are some disadvantages in your mind, but what 
might be some of the disadvantages and advantages, if you 
could?
    And I'm ready to close out and go to the next panel, unless 
you have----
    Admiral Papp. Yes, ma'am.
    I think the biggest con is that the Coast Guard generally 
builds and operates ships for 30-plus years. It is something we 
can rely upon. It is a capability the country knows it has.
    And if you build a ship and you invest in it, if you were 
to lease over that time period, it ends up costing you way 
more.
    And I know your interest in this, so we had a chance to do 
a rudimentary business case analysis, and also look at the 
legal implications of what missions we could conduct for the 
Coast Guard under Coast Guard-owned or leased.
    I would say, at this point, because we are struggling right 
now just to have one polar icebreaker, there's a certain level 
we want to have Coast Guard-owned, because we can rely upon 
that.
    And it's sort of like, if I can use a very simple 
illustration, a number of years ago, I wasn't certain whether I 
was going to retire or not. And we had one car that we owned, 
and we know that's ours and we can rely upon it all the time. 
But because I wasn't sure what was happening, we leased another 
car.
    We spent a lot of money on that lease. And at the end of 
the day, it wasn't ours, and we had to turn it back in, so we 
could fall back on the car that we owned.
    I want to have an icebreaker that we own, maybe a couple 
icebreakers that we own. And then I think leasing is more of an 
option, in my mind, when you need surge capabilities for a 
couple years and you can go out and perhaps invest in a lease 
that gets you through a tough period. But then at the end of 
the day, you don't have the responsibility for maintaining it 
afterward.
    So right now I am focused on procuring, getting the 
appropriation, and building an icebreaker that we will have for 
a good three decades and be able to rely upon, and use it for 
the full set of Coast Guard missions.
    And that brings in the other argument, the legal argument. 
Under the various leasing options that we have looked at, you 
can use it for icebreaking, but you can't necessarily use it 
for law enforcement and defense-related operations, where you 
need a sovereign military vessel that belongs to the United 
States.
    So my recommendation, my strongest recommendation to you, 
is we proceed in getting a Coast Guard-owned icebreaker or two 
as we go forward, and put our efforts into that. And then who 
knows what happens in the future. Maybe there are some times 
where you need to surge for a couple years, because of 
conditions, and a lease might make sense for that.
    But my strongest recommendation is staying with the Coast 
Guard-owned.
    Senator Landrieu. Thank you. I think this has been a very, 
very good first panel. And, Admiral, thank you for your 
testimony.
    Admiral Papp. Thank you, Chairman, for having this hearing.
    Senator Murkowski. Chairman.
    Senator Landrieu. Yes, go ahead.

                         FISHERIES ENFORCEMENT

    Senator Murkowski. If I might just ask one more brief 
question, because we focused a lot about the activities up 
north, but I think we also recognize that one of the very 
significant responsibilities of the Coast Guard in this region 
is fisheries enforcement.
    And unfortunately, we have seen an increase in the illegal, 
unreported, the high seas driftnet fisheries. Could you just 
comment, briefly, Admiral, on what we're seeing out there? Is 
it an increased volume of traffic, a level of sophistication 
that we haven't seen before? And how are we doing in combating 
this illegal activity?
    Admiral Papp. Yes, ma'am.
    And I would like to have my staff or myself, when both of 
you get back to Washington, and give you a classified briefing 
on what is going on there.
    But I would call this fishing piracy that is going on. 
Right now, we are prosecuting a case--the WHEC Rush, as I 
mentioned, is almost all the way to Japan but still under 
Admiral Ostebo's tactical control.
    And we have been working across the Government. We have 
something called the Maritime Operational Threat Response 
Organization, which works across State and Justice and other 
departments. And we have come to a national objective of 
seizing what amounts to, we found out now, a stateless vessel 
that has 40 tons of fish.
    They put 8 miles of net out there and collect everything 
that flows through it, killing off a lot of species, and 
picking up migratory stocks that perhaps would come back to 
Alaska waters. And they have 40 tons of fish onboard.
    We have a boarding team on board right now on the cutter 
Rush, and we are working to come to either pass this off to 
China, perhaps, for prosecution, because there is a claim--
well, there are Chinese citizens on board that are manning the 
ship. But it is stateless, as far as we can determine. And as a 
fallback, we can bring it back to the United States for 
prosecution as well.
    Senator Landrieu. I hope we are filing charges not just 
against the man operating the ship but the buyers of these fish 
and tracking it down to the networks that are really funding 
these kinds of illegal operations. And we will commit to work 
on that.
    I think people would be horrified at home to hear--the 
lower 48--about what is really going on here in these waters.
    But thank you, Admiral, we appreciate it.
    Admiral Papp. Thank you, Chairman, and thank you, Senator 
Murkowski.
    Senator Landrieu. And our next panel, and we're going to 
conduct the next panel for about 30 to 35 minutes.
    As you are introduced, if you come forward? There'll be 
very brief introductions and the Senator may want to add some 
words.
    Mark Meyer serves as vice chancellor for research at the 
University of Alaska at Fairbanks, where he oversees 
administration of the university's $123 million per year 
research enterprise that supervises the university's stand-
alone initiatives. Prior to serving in this capacity, 
Chancellor Myers held various senior executive and scientific 
research in petroleum industry positions, including the State 
of Alaska pipeline coordinator.
    Welcome, Dr. Myers.
    Our next is Merrick Burden, executive director of the 
Marine Conservation Alliance. Mr. Burden is executive director 
of a group of industry harvesters, processors, and communities 
engaged in the North Pacific and Bering Sea seafood industry. 
He can probably shed some light on what we just spoke about.
    Their role is to seek practical solutions to sustainable 
fisheries management through sound science and application of 
law.
    And finally, Mr. Bruce Harland, vice president of Alaskan 
international contract service, Crowley Marine Services, a 
business unit responsible for the U.S. West Coast international 
markets. Crowley provides ship-assisted and escort services, 
salvage, and oil spill response equipment; contract towing 
services; Atlantic transportation services; et cetera, et 
cetera.
    So, all three of these gentlemen have tremendous experience 
in areas that our subcommittee is exploring today.
    Dr. Myers, why don't we begin with you? I think we have 
asked for 5 minutes of opening testimony. Then we will go 
through probably just one round of questioning, but go right 
ahead.
    Try to pull the mike a little closer to you, and you may 
have to adjust it, or you can pull it off, like I did. I am not 
sure it's on. One of the staff may turn that on.
STATEMENT OF DR. MARK MYERS, VICE CHANCELLOR FOR 
            RESEARCH, UNIVERSITY OF ALASKA--FAIRBANKS, 
            FAIRBANKS, ALASKA
    Dr. Myers. Thank you, Chairman Landrieu, Senator Murkowski, 
for the opportunity to speak. But also, thank you for coming to 
Alaska.
    You can't get a perspective on the size and scope of the 
State and the challenges the Coast Guard faces until you 
actually see it in place.
    The State is vast. The Coast Guard's mission is vast. Just 
to give you an example, almost 30 years ago, I worked in the 
oil and gas industry, and we did an exploration well in the 
Navarin Basin. That was after working in Louisiana.
    Senator Landrieu. You're going to have to speak a little 
louder. It is going to be hard, so just kind of lean into your 
mike.
    Dr. Myers. Is that better?
    Senator Landrieu. That's better.
    Dr. Myers. Almost 30 years ago, when I first came up to 
Alaska, I worked on an oil exploration well in the Navarin 
Basin. And we used a much larger helicopter, a Chinook, then 
the H-60 here, much more capable in terms of distance.
    In order to get to the well site, we had to replace almost 
all the seats on the helicopter with inboard fuel tanks, and we 
could only take a few people at a time, over 4 hours of over-
ocean conditions out of Nome, the closest major port and 
facility with fuel and an airport.
    And we didn't wear our exposure suits. To simply explain 
that, if you went down, the exposure suit, you would not 
survive long enough. There would be no rescue.
    So to give you scope, that was one well almost 400 miles 
offshore in Alaska. That is the scale and scope of issues.
    And we went off in the closest possible location that had 
an airport and fuel.
    So the areas we're talking about are huge in scope, and the 
Coast Guard's mission is very, very challenging in that way.
    I'm going to focus my testimony on the Arctic itself, the 
Arctic region, so sort of the Bering Strait into the north. And 
in addition to the huge responsibilities the 17th District has, 
the Arctic is going to be a very big challenge.
    As you had mentioned, we are seeing major changes in 
environmental conditions. We're also seeing a significant drive 
toward resource development, circumpolar in the Arctic, a lot 
of that driven by oil and gas potential, the U.S. Geological 
Survey 2008 study pointed out, as you did, 13 percent of the 
undiscovered resources. That equates to about 90 billion 
barrels of oil and about 44 billion barrels of natural gas 
liquids. That is a huge amount of petroleum potential out 
there. And countries are exploring, whether it be the United 
States or other countries, it is happening as we speak.
    At the same time, there are immense mineral deposits in the 
Arctic, in addition. Coal deposits, lead, zinc, iron ore, 
nickel in the Arctic that are being considered for development, 
now that we're seeing possibilities for shipping.
    Ecotourism has been mentioned. That is becoming a much 
larger industry in the Arctic as people want to get north and 
see this country.
    And then, finally, Arctic shipping and possibly Arctic 
fishing. As we see opportunities to develop resources in the 
Arctic, the ability of the northern sea route becomes a real 
possibility with ice-strengthened hulls.
    So we're seeing those major pushes in the development side. 
At the same time, the change that is happening in the Arctic is 
happening very rapidly.
    As a simple analog, it is really about water. 
Fundamentally, the Arctic is frozen. And as it warms up, it is 
becoming much less frozen.
    Simply put, that means seasonally, much longer open water 
seasons. And also, the glue that holds the Arctic coast 
together is permafrost. Permafrost is really just ice within 
the soil. As we lose that, as it changes, the coast erodes much 
more quickly.
    As we lose sea ice, there are huge environmental feedback 
mechanisms that take place that increase warming. Again, ice 
reflects really well, reflects sunlight. The open ocean absorbs 
sunlight. Ocean acidification and other factors are occurring.
    So we're seeing in the Arctic in major transition, both in 
the case of the resources that are available, but also in the 
environmental conditions.
    So research to understand those conditions is extremely 
important. And the Coast Guard has a significant role in that 
through the Healy.
    The Healy is a unique U.S. asset. It can carry about 35 
scientists. It has tremendous laboratory capacity. It is, 
basically, our major Arctic research vessel that can work in 
the areas to the north, where we have ice conditions still.
    Again, the ice changes we're seeing both on the fringes of 
the summer months--September is the least amount of sea ice--
but also as you move further north, it is still very much ice.
    The Healy can break about 4.5 feet of ice. It can work in 
conditions that no other surface vessel that the U.S. 
Government operates can. It has been doing that work very well.
    For instance, in determining the basic shape and conditions 
of the Arctic basin and any potential claim that the United 
States might make in the future under the Law of the Sea, the 
Healy, along with the St. Laurent, the Canadian service, has 
been for multiple years working to acquire the basic seismic 
and bathymetric data sets so we understand both the Canadian 
and Russian claims, and a U.S. claim or protest should we 
decide to go that route.
    So it's a critical vessel. That vessel is also the only 
working icebreaker we have. So if it gets called off for other 
search-and-rescue areas, the scientific missions must quit.
    So it is a very challenging condition to have only a single 
icebreaker. The Polar Star will become critical, to see it 
operational. Also, a medium icebreaker can only really work in 
single season ice. It can't do the heavy lifting that a heavy 
icebreaker can, in the sense of dealing with more severe ice 
conditions.
    But again, the Healy becomes a critical asset. The Coast 
Guard cooperation with the National Science Foundation has led 
to fundamental research changes and understandings in the 
Arctic. And if we lose that capacity, or if we can't maximize 
that capacity, the country will lose a significant amount of 
research capacity.
    Second, the opportunity to do transformational approaches 
is available. If you think about these helicopters, there are 
very few of them. The H-60 is land-based only. That is really 
the only seaborne helicopter that can be carried by cutter. 
They can't cover much of the ground.
    We need to start using more unmanned systems, unmanned 
aerial vehicles (UAVs), unmanned submarines, submarine gliders, 
and remote sensing systems, coupled with the fundamental 
traditional way that we do Arctic domain awareness.
    The university is working in strong partnership with the 
Department of Homeland Security through various funded research 
projects, one of which is a cooperative between the Department 
of Homeland Security and the universities of Alaska and Hawaii 
working jointly.
    One of the products of that research is an Arctic domain 
awareness system that uses very small portable radars with 
their own small portable supply mostly powered by wind and 
solar, but a little bit of backup diesel. Those radars can 
sense sea ice.
    Along with UAVs, along with satellites, we can do a much 
better job of detecting ice along the coast. We can also use 
it, potentially, to locate vessels. The power source and the 
communication system then can be used to relay critical 
information for other sensors.
    So the ability to put coastal, small-scale, portable 
systems out there, combined with other assets, really 
revolutionizes our ability to see and understand the conditions 
that are occurring in the Arctic, giving a better picture.
    It is crucial that we build systems that can work under 
ice. Again, if you look fundamentally, much of the year, the 
coast is still covered. We need to understand what is under the 
ice. We need to understand, should there be a catastrophic oil 
spill, to be able to model and actually map the movement of 
that oil under ice, also to understand the ecological changes 
that are occurring under the ice as well.
    So there's a lot of new technology and approaches that 
universities are in the forefront, that the partnership with 
Homeland Security are really important.

                           PREPARED STATEMENT

    At the same time, it is very important the Coast Guard, in 
my opinion, start adapting and using more of these approaches. 
Being able to launch small, UAVs off their ships, for example, 
would be a huge leveraging system.
    [The statement follows:]
                  Prepared Statement of Dr. Mark Myers
    Thank you, Chairwoman Mary Landrieu, Ranking Member Dan Coats, and 
distinguished members of the subcommittee. It is a pleasure to appear 
before you today to discuss the resources necessary to respond to 
changes in the Arctic, and the United States Coast Guard's many 
responsibilities in Alaska.
    The U.S. Coast Guard is actively engaged in missions throughout 
maritime Alaska. For this testimony I will focus on the Arctic and the 
great challenges that the Coast Guard and the Nation will face in light 
of the environmental and human use changes we are observing. I will 
stress the importance of research both enabled and conducted with the 
support of the Coast Guard and needed by the Coast Guard to develop 
effective mission capabilities in this challenging environment.
                 major drivers of change in the arctic
    Two major drivers of change in the Arctic are: (1) a warming 
climate with its corresponding ecosystem changes; and (2) an increased 
demand for the Arctic's abundant natural resources. A major result of a 
warming Arctic has been a significant reduction in seasonal ice cover 
along with a decrease in multi-season ice in the central Arctic Ocean. 
This has created more seasonal near shore open water and a longer 
potential shipping season in areas of the Arctic. These circumstances 
have contributed to increased interest in resource exploration and 
development along with more ship based tourism and seasonal marine 
transport. The increased human activity in the Arctic is coupled with 
challenges faced by Arctic communities due to increased coastal 
erosion, storm surge and permafrost thawing and the associated 
challenges to infrastructure along with concern about maintaining the 
quality of and access to subsistence food sources in a changing 
environment.
    These changes in the Arctic place additional burdens on the Coast 
Guard to focus more efforts further North in the challenging 
environments of the Arctic in key missions including marine 
environmental protection, search and rescue, protecting marine living 
resources, maintaining maritime domain awareness and presence and 
managing ice operations. The U.S. Arctic is a challenging environment 
in which to perform these missions because it has little built 
infrastructure (for example no deep water ports), severe operating 
conditions, and a rapid ecosystem change.
                    needed investments in the arctic
    A significant investment in research will be necessary for the 
Coast Guard to understand the changing conditions successfully and 
their effects on its key missions and incorporate new approaches and 
technologies into arctic operations. This will include robust capacity 
to support and understand and integrate the results of wide ranging 
Arctic research fields including physical oceanography, atmospheric and 
weather science, ecosystem analysis and social science. The Interagency 
Arctic Research Policy Committee (IARPC) Research Plan for 2013-2017 
highlights many of the needed study directions including sea ice and 
marine ecosystem studies, terrestrial ecosystem studies, atmospheric 
studies of surface heat, energy and mass balances, observing systems, 
regional climate models, adaptation tools for sustaining communities 
and human health studies.
    With respect to observing systems, new approaches to integrated 
Arctic monitoring are necessary some of which can be provided by 
unmanned systems including aircraft (from hand launched to Global Hawk) 
ocean surface and underwater vehicles (submarine gliders and powered) 
which can be used in conjunction with aircraft, ship, buoys, and cabled 
ocean observing systems, and satellite systems. In addition, small 
portable and remotely powered land based systems such as small high 
frequency coastal radar can greatly assist in tracking ships, measuring 
surface currents and tracking sea ice.
    Key to successful research and operations in the Arctic are ice 
breakers and long endurance aircraft. The Healy is the only currently 
operational U.S. ice breaker in the Arctic and a crucial and unique 
research platform for working in and moving through ice up to 4.5 feet 
thick. With its 4,200 square feet of lab space, sensor systems and 
winches the Healy can accommodate 35 scientists (up to 50 in surge 
capacity). The Healy is the only U.S. Government surface vessel capable 
of performing broad based scientific research in the northern and 
central regions of the Arctic Ocean. In recent years the Healy has 
worked collaboratively with the Canadian ice breaker St-Laurent to 
gather key bathymetric and seismic data critical to understanding the 
basis for future claims for an extended continental shelf that may be 
filed under UNCLOS by either Canada or Russia. In October 2012 the 
United States will launch the National Science Foundation funded, 
University of Alaska Fairbanks operated global class ice-capable 
research vessel R/V Sikuliaq. With its Arctic specific design the 
Sikuliaq will be able to break through up to 1 meter of ice and perform 
similar research missions. However, the Sikuliaq will not be able to 
operate as far north or for the length of season that the Healy can. 
The Sikuliaq is best seen as a complimentary vessel to the Healy. Until 
the Polar Star is refurbished the Healy will be the only operational 
U.S. polar ice breaker. That means that in addition to its scientific 
mission the Healy must perform all the other key northern missions 
including such things as rescue and emergency escort, marine 
environmental protection and maintaining maritime domain awareness and 
protection. Even with the refurbishment of the Polar Star new ice 
breaking capacity will be necessary for the United States to maintain a 
credible long term Arctic presence and conduct effective research in 
ice covered waters.
           government coordination with research universities
    It is important that the Coast Guard and Department of Homeland 
Security (DHS) continue to be an active partner with Federal and State 
research agencies and universities which conduct arctic research. These 
include but are not limited to partnerships with National Science 
Foundation, National Oceanic and Atmospheric Administration, United 
States Geological Service, National Aeronautics and Space 
Administration, Department of Defense, the Environmental Protection 
Agency, the State of Alaska, the United States Antarctic Resource 
Center, and U.S. universities including Alaska, New Hampshire, Hawaii 
and others. One example of a successful university/DHS collaboration 
with the University of Hawaii/University of Alaska Fairbanks DHS funded 
Center for Island, Maritime and Extreme Environment Security (CIMES). 
The CIMES Arctic Maritime Domain Awareness component will deliver to 
the Coast Guard in the summer of 2013 a demonstration of integrated 
satellite, UAV, and high frequency radar for collecting and analyzing 
``ice-water interface'' data in near real-time for navigation 
assistance off the coast of Barrow. The purpose of the demonstration is 
to validate that the technologies and models created as a result of 
CIMES funding from DHS can directly enhance Coast Guard operations by 
improving the understanding between sea ice and open water, in near 
real-time, for: (1) search and rescue, (2) environmental protection, 
and (3) border security missions, in the Arctic.
    In summary, the Coast Guard will play an increasingly important 
role in the Arctic in the upcoming decades. Increased investment will 
be needed in many areas of research and technology necessary to 
understand and respond to increased maritime activity and the changing 
environment. Increased investment will be needed in building and 
maintaining a capable ice breaker fleet, forward operating 
infrastructure and capacities, strong agency and university 
partnerships, and new technological enablers including unmanned systems 
and advanced sensors.

    Senator Landrieu. Thank you very much.
    I am very happy that you mentioned that, because, as the 
Senator knows, I plussed-up the research budget of Homeland 
Security by $200 million. I feel very strongly in investing in 
research dollars.
    And, Senator, we can work to direct a portion of that, I 
think, with the support of the department, to more of this kind 
of research for the Arctic, because we have to operate more 
smartly. And I think the new technology with this unmanned 
technology could give us more eyes in the sky, using our 
satellites, et cetera, a smarter way for the Coast Guard to 
catch these perpetrators, like this one that put an 8-mile net 
across the ocean, as well as using it for others.
    So, thank you.
    Mr. Burden.
STATEMENT OF MERRICK BURDEN, EXECUTIVE DIRECTOR, MARINE 
            CONSERVATION ALLIANCE, SEATTLE, WASHINGTON
    Mr. Burden. Before I start, I would just like to express my 
thanks. It is a great honor to be here this morning. I 
appreciate the invitation. So I will just go ahead and get 
started.
    I would like to thank the chair and ranking member of the 
subcommittee for holding this hearing today. I would also like 
to thank Senator Murkowski for her ongoing commitment to the 
Coast Guard, the Alaska fishing industry, and fishing-dependent 
coastal communities.
    For the record, my name is Merrick Burden, and I am the 
executive director of the Marine Conservation Alliance (MCA).
    MCA is a broad-based coalition of seafood harvesters, 
processors, fishing-dependent coastal communities, Western 
Alaska community development port organizations involved in the 
Federal ground fish and shellfish fisheries off of Alaska.
    MCA was formed to promote the sustainable use of North 
Pacific marine resources by present and future generations. MCA 
supports research and public education regarding the fishery 
resources of the North Pacific and seeks practical solutions to 
resource conservation issues.
    The fishing industry off Alaska generates more than $3 
billion at the wholesale level and supports more than 80,000 
jobs directly and indirectly on an annual basis. It is the 
largest private-sector employer in the State of Alaska, and it 
employs individuals from all over the United States who come to 
Alaska to work as fishermen, seafood processors, or in support 
industries.
    In many areas of coastal Alaska, the seafood industry is 
the dominant source of employment, and is the economic driver 
for those communities.
    The fisheries of the North Pacific have often been called 
one of the success stories of fishery management. The volume of 
fishery resources extracted from the North Pacific and Bering 
Sea number in the millions of tons annually, and many fisheries 
in the region have been certified as sustainable by third-party 
verification processes.
    This multibillion-dollar economic engine relies upon 
sustainable management practices, which means domestic 
regulations and international treaties must be enforced.
    These fisheries take place in some of the most remote areas 
of the United States and in some of the most hazardous maritime 
conditions found on Earth. Sea ice and gale force winds are 
commonplace in the region and frequently provide hardship for 
those that live and work in the area.
    In the fall of 2011, for instance, the city of Nome, 
Alaska, required that an icebreaker assist in getting a fuel 
tanker to the city, in order for residents there to have heat 
and energy for the long winter.
    During the snow crab season of this past winter, the crab 
industry was forced to hire a tug for 3 months to regularly 
clear ice from the St. Paul Harbor so that crab vessels could 
safely access the harbor to deliver their catch.
    In addition to these specific examples, each year fishermen 
injured at sea are airlifted from their vessels and transported 
via helicopter to Kodiak or Anchorage, more than 100 miles 
away.
    Despite the remoteness of this region, substantial amounts 
of commerce make their way between North America and Asia via 
the North Pacific great circle route. Ships traveling between 
the U.S. west coast thread their way through the Aleutian 
Islands, typically passing through Unimak Pass, which lies to 
the east of Dutch Harbor.
    Occasionally, these ships find themselves in distress and 
in need of assistance. At times, these ships have drifted 
ashore and broken apart, spilling fuel oil or their cargo into 
the waters of the North Pacific.
    Only a handful of years ago, this very thing occurred and 
threatened to impact the fishing industry due to concerns from 
consumers over the possibility of contaminated seafood. The 
fishing industry responded by conducting water quality 
assessments and fish contamination tests to alleviate these 
concerns.
    While these assessments cost a great deal, the seafood 
industry in Alaska depends on consumer confidence in their 
products. Although there have not been any apparent impacts on 
the seafood industry from these events yet, increased shipping 
traffic increases a risk that there may be impacts in the 
future.
    Madam Chair, the Coast Guard plays an important part role 
in these waters, which matter a great deal to the North Pacific 
seafood industry.
    The seafood industry has long viewed the Coast Guard as not 
only a welcome presence but a necessary partner. The Coast 
Guard's task in this region is enormous. At times, the Coast 
Guard is the lifeline of the industry as they aid fishermen in 
distress. They play the part of incident management and 
response.
    At other times, they enforce domestic regulation and 
international treaties or agreements, such as the observed 
Russia-United States maritime boundary.
    These activities often take place in severe conditions 
where gale force winds, heavy seas, sea ice, and freezing spray 
are present that not only affect the ability of fishing vessels 
to harvest fish from these waters but also affect the ability 
of the Coast Guard to perform rescue operations, or to respond 
to other incidents.
    In these instances, mere minutes can mean the difference 
between a successful response and an unsuccessful one.
    This means that reliable, up-to-date equipment that can 
stand up to these conditions is a vital component of the Coast 
Guard's mission in Alaska and to the people that rely upon the 
Coast Guard for their well-being.
    The fishing industry is inherently at the whim of the 
natural environment. As the natural environment changes, so 
must the seafood industry.
    One place that is experiencing relatively dramatic change 
is the Arctic. Information indicates that crab, salmon, and 
some species of ground fish may be extending their range 
northward from the Bering Sea and spilling into the Arctic. If 
commercially valuable fish and shellfish become established in 
sufficient numbers, it is possible that fisheries will look to 
expand northward as well.
    Recently, however, the North Pacific Fishery Management 
Council voted to close these waters to fishing for many types 
of species until more is known regarding the ability of this 
environment to support commercial fishing activities. This 
means that for the foreseeable future, we do not expect to see 
much fishing in this region.
    Over the longer term, it appears possible for fisheries to 
develop in the Arctic. But due to conditions that are present 
in this area, it is difficult for us to imagine fishing 
activity occurring at the same scale which it does in the 
Bering Sea.
    In any event, when you U.S.-based commercial fishing 
activity takes place in the Arctic, if it does at all, it is 
almost certainly many years away and, therefore, the needs of 
Coast Guard as it relates to domestic fishing activity in the 
Arctic appears limited for some time.
    However, other user groups are eyeing the Arctic, such as 
the oil and gas industry. These developments will require 
additional resources, which further expand the Coast Guard's 
mission off Alaska.
    It recently came to our attention that the Coast Guard's 
17th District is facing a 19-percent reduction in the number of 
cutter days that can be used for fisheries law enforcement. Our 
understanding is that this reduction is being driven by the 
retirement of older Coast Guard assets, which have not been 
replaced, and the reprioritization of remaining assets to 
operations in the Arctic.
    The seafood industry is concerned that this reduction will 
impact safety, enforcement, and management of North Pacific 
fisheries.
    We would ask that the Congress provided funding necessary 
to maintain a fisheries-based Coast Guard presence that is more 
similar to recent years, while also providing funding that will 
be necessary for the Coast Guard's expanding role in the 
Arctic.

                           PREPARED STATEMENT

    Madam Chair, I want to thank you and members of this 
subcommittee for providing this opportunity to testify to you 
today. I would be happy to answer any questions.
    [The statement follows:]
                  Prepared Statement of Merrick Burden
    I would like to thank the Chair and Ranking member of the 
subcommittee for holding this hearing today. I would also like to thank 
Senator Murkowski for her ongoing commitment to the United States Coast 
Guard, the Alaska fishing industry, and fishing dependent coastal 
communities. For the record, my name is Merrick Burden, and I am the 
Executive Director of the Marine Conservation Alliance (MCA). MCA is a 
broad based coalition of seafood harvesters, processors, fishing 
dependent coastal communities, and western Alaska Community Development 
Quota (CDQ) organizations involved in the Federal groundfish and 
shellfish fisheries off Alaska. MCA was formed to promote the 
sustainable use of North Pacific marine resources by present and future 
generations. MCA supports research and public education regarding the 
fishery resources of the North Pacific, and seeks practical solutions 
to resource conservation issues.
    The fishing industry off Alaska generates over $3 billion at the 
wholesale level and supports over 80,000 jobs directly and indirectly 
on an annual basis. It is the largest private sector employer in the 
State of Alaska, and it employs individuals from all over the United 
States who come to Alaska to work as fishermen, seafood processors, or 
in support industries. In many areas of coastal Alaska the seafood 
industry is the dominant source of employment and is the economic 
driver for those communities.
    The fisheries of the North Pacific have often been called one of 
the success stories of fishery management. The volume of fishery 
resources extracted from the North Pacific and Bering Sea number in the 
millions of tons annually and many fisheries in the region have been 
certified as sustainable by third-party verification processes. This 
multi-billion dollar economic engine relies upon sustainable management 
practices, which means domestic regulations and international treaties 
must be enforced.
    These fisheries take place in some of the most remote areas of the 
United States and in some of the most hazardous maritime conditions 
found on Earth. Sea ice and gale force winds are commonplace in the 
region and frequently provide hardship to those that live and work in 
the area. In the fall of 2011 for instance, the city of Nome, Alaska, 
required that an ice breaker assist in getting a fuel tanker to the 
city in order for residents there to have heat and energy for the long 
winter. During the snow crab season of this past winter, the crab 
industry was forced to hire a tug for 3 months to regularly clear ice 
from the St. Paul harbor so that crab vessels could safely access the 
harbor to deliver their catch. In addition to these specific examples, 
each year fishermen injured at sea are airlifted from their vessels and 
transported via helicopter to Kodiak or Anchorage, several hundred 
miles away.
    Despite the remoteness of this region, substantial amounts of 
commerce make their way between North America and Asia via the North 
Pacific Great Circle route. Ships traveling between the U.S. west coast 
thread their way through the Aleutian Islands, typically passing 
through Unimak pass which lies to the east of Dutch Harbor. 
Occasionally these ships find themselves in distress and in need of 
assistance. At times these ships have drifted ashore and broken apart, 
spilling fuel oil or their cargo into the waters of the North Pacific. 
Only a handful of years ago this very thing occurred and threatened to 
impact the fishing industry due to concerns from consumers over the 
possibility of contaminated seafood. The fishing industry responded by 
conducting water quality assessments and fish contamination tests to 
alleviate these concerns. While these assessments cost a great deal, 
the seafood industry in Alaska depends on consumer confidence in their 
products. Although there have not been any apparent impacts to the 
seafood industry from these events yet, increased shipping traffic 
increases the risk that there may be impacts in the future.
    Madame Chair, the United States Coast Guard plays an important role 
in these waters which matter a great deal to the North Pacific seafood 
industry. The seafood industry has long viewed the United States Coast 
Guard as not only a welcome presence, but a necessary partner. The 
Coast Guard's task in this region is enormous. At times the Coast Guard 
is the lifeline of the industry as they aid fishermen in distress; they 
play the part of incident management and response; at other times they 
enforce domestic regulation and international treaties or agreements, 
such as the observed Russian/U.S. maritime boundary. These activities 
often take place in severe conditions where gale force winds, heavy 
seas, sea ice, and freezing spray are present that not only affect the 
ability of fishing vessels to harvest fish from these waters, but also 
affect the ability of the Coast Guard to perform rescue operations or 
to respond to other incidents. In these instances, mere minutes can 
mean the difference between a successful response and an unsuccessful 
one. This means that reliable, up to date equipment that can stand up 
to these conditions is a vital component of the Coast Guard's mission 
in Alaska, and to the people that rely upon the Coast Guard for their 
well-being.
    The seafood industry is inherently at the whim of the natural 
environment. As the natural environment changes, so must the seafood 
industry. One place that is experiencing relatively dramatic change is 
the Arctic. Information indicates that crab, salmon, and some species 
of groundfish may be extending their range northward from the Bering 
Sea and spilling into the Arctic. If commercially-valuable fish and 
shellfish become established in sufficient numbers, it is possible that 
fisheries will look to expand northward as well. Recently, however, the 
North Pacific Fishery Management Council voted to close these waters to 
fishing for many types of species until more is known regarding the 
ability of this environment to support commercial fishing activities. 
This means that for the foreseeable future we do not expect to see much 
fishing in this region. Over the longer term it appears possible for 
fisheries to develop in the Arctic, but due to the conditions which are 
present in this area it is difficult for us to imagine fishing activity 
occurring at the same scale which it does in the Bering Sea. In any 
event, when U.S.-based commercial fishing activity takes place in the 
Arctic, if it does at all, is almost certainly many years away and 
therefore the needs of the Coast Guard as it relates to domestic 
fishing activity in the Arctic appears to be limited for some time. 
However, other user groups are eyeing the Arctic, such as the oil and 
gas industry. These developments will require additional resources 
which will further expand the Coast Guard's mission off Alaska.
    It recently came to our attention that the Coast Guard 17th 
District is facing a 19-percent reduction in the number of cutter days 
that can be used for fisheries law enforcement. Our understanding is 
that this reduction is being driven by the retirement of older Coast 
Guard assets which have not been replaced, and the reprioritization of 
remaining assets to operations in the Arctic. The seafood industry is 
concerned that this reduction will impact safety, enforcement, and 
management of North Pacific fisheries. We would ask that Congress 
provide funding necessary to maintain a fisheries-based Coast Guard 
presence that is more similar to recent years while also providing 
funding that will be necessary for the Coast Guard's expanding role in 
the Arctic.
    Madame Chair, I want to thank you and members of the Committee for 
providing this opportunity to testify before you today. I will be happy 
to answer any questions you may have.

    Senator Landrieu. Thank you very much.
    Mr. Harland.
STATEMENT OF BRUCE HARLAND, VICE PRESIDENT, COMMERCIAL 
            SERVICES, CROWLEY MARINE, OAKLAND, 
            CALIFORNIA
    Mr. Harland. Good morning, and thank you for allowing me to 
speak with you this morning.
    My name is Bruce Harland, and I am the vice president of 
contract services for Crowley Marine Services, a company that 
has been operating in the Alaskan Arctic continuously since 
1957.
    I'm also here as a representative of the American Waterway 
Operators (AWO) and its member companies that supply valuable 
transportation services to Alaskans.
    In preparation for the meeting, the members first agreed on 
our definition of the Alaskan Arctic as the region west and the 
north of the Unimak Pass.
    This area is characterized by extreme weather events, 
changing and unpredictable ice conditions from year to year, 
draft limitations, and above all, a remote region where 
assistance can be many hours or even days away.
    AWO-member companies have worked within these limitations 
to develop a safe, efficient, and cost-effective system to 
provide transportation and fuel delivery services to villages 
and businesses in the region. The tools we have developed 
include fleets to deliver supplies in shallow waters; operating 
material such as float hoses to deliver to island tanks; spill 
response plans; landing craft used where no docks exist; 
procedures to be followed that capture best practices; and 
above all, experienced, professional mariners who have an 
intimate knowledge of the region.
    Over the last 5 years, we have witnessed a dramatic change 
in the Arctic with reduced but still unpredictable ice 
conditions, increased interest in resource development in the 
outer continental shelf, adventure tourism, and talk of new 
polar shipping routes.
    The Coast Guard is now developing strategies to respond to 
this change and AWO-member companies would propose these areas 
of focus:
    Accurate charting and hydrographic information. Most areas 
in the region have little or no up-to-date charts. Increased 
use of electronic charting and aids to navigation embedded into 
electronic charts would be a significant improvement. The 
navigable rivers and bays are especially critical for safe 
navigation.
    Increased Automatic Identification System coverage in the 
area to identify other vessels for security, collision 
avoidance, and potential assistance.
    Vessel traffic system for Unimak Pass and the Bering Strait 
to improve safe passage.
    More accurate weather and tide information for the region.
    Improved search-and-rescue capabilities and incident 
response in the region. This could be with a combination of new 
assets and facilities in the region.
    Improved icebreaking capabilities. This would again provide 
search-and-rescue capability, security for the region, and 
could potentially extend the marine season by opening up the 
ice for shipping during the shoulder seasons.
    A deepwater Arctic port. This is currently being 
investigated by the State and the Army Corps, and could be 
utilized as a forward deployment point for the Coast Guard.

                           PREPARED STATEMENT

    In conclusion, we would like to leave you with a final 
thought. AWO members have been safely operating in the region 
for many years and, in conjunction with both the Coast Guard 
and the State of Alaska Department of Environmental 
Conservation, have developed effective systems for the safe 
transportation of cargo and bulk fuels vital to the health and 
development of the local cities and villages in Alaska. 
Significant regulatory changes that would alter this 
transportation system could have a very large impact on the 
fragile economic health of the region already suffering from 
the high cost of basic necessities, such as heating fuel.
    Thank you.
    [The statement follows:]
                  Prepared Statement of Bruce Harland
    Good morning and thank you for allowing me to speak with you this 
morning. My name is Bruce Harland and I am the vice president of 
Contract Services for Crowley Marine Services, a company that has been 
operating in the Alaskan Arctic continuously since 1957. I am also here 
as a representative of the American Waterways Operators and its member 
companies that supply valuable transportation services to Alaskans.
                      the arctic region in alaska
    In preparation for this meeting, the members first agreed on our 
definition of the Alaskan Arctic as the region west and north of Unimak 
Pass. This area is characterized by extreme weather events, changing 
and unpredictable ice conditions from year to year, draft limitations 
and above all a remote region where assistance could be many hours or 
days away. AWO-member companies have worked within these limitations to 
develop a safe, efficient, and cost-effective system to provide 
transportation and fuel delivery services to villages and business in 
the region. The tools we have developed include lighterage fleets to 
deliver supplies in shallow waters, operating materials such as float 
hoses to deliver to inland tanks, spill response plans, landing craft 
for where no docks exist, procedures to be followed which capture best 
practices and above all experienced professional mariners who have an 
intimate knowledge of the region.
           strategies to address changing climatic conditions
    Over the last 5 years we have witnessed a dramatic change in the 
arctic with reduced but still unpredictable ice conditions, increased 
interest in resource development in the Outer Continental Shelf (OCS), 
adventure tourism and talk of new polar shipping routes. The USCG is 
now developing strategies to respond to this change and the AWO-member 
companies would propose these areas of focus.
  --Accurate charting and hydrographic information. Most areas in the 
        region have no up to date charts. Increased use of electronic 
        charting and aids to navigation embedded into electronic charts 
        would be a significant improvement. The navigable rivers and 
        bays are especially critical for safe navigation.
  --Increased AIS coverage in the area to identify other vessels for 
        security, collision avoidance, and potential assistance.
  --Vessel traffic system for Unimak Pass and Bering Straits to improve 
        safe passage.
  --More accurate weather and tide information for the region.
  --Improved Search and Rescue capabilities and incident response in 
        the region. This could be with a combination of new assets and 
        facilities in the region.
  --Improved ice-breaking capabilities. This would again provide Search 
        and Rescue capabilities, security for the region and could 
        potentially extend the marine season by opening up the ice for 
        shipping during the shoulder seasons.
  --Deepwater Arctic Port. This is currently being investigated by the 
        State and the Army Corps and could be utilized as a forward 
        deployment point for the USCG.
                               conclusion
    We would like to leave you with a final thought; AWO members have 
been safely operating in the region for many years and in conjunction 
with both the USCG and State of Alaska Department of Environmental 
Conservation have developed effective systems for the safe 
transportation of cargo and bulk fuels vital to the health and 
development of the local cities and villages in Alaska. Significant 
regulatory changes that would alter this transportation system could 
have a devastating impact on the fragile economic health of the region 
already suffering from the high cost of basic necessities such as 
heating fuel.

    Senator Landrieu. Thank you.
    We're going to start with Senator Murkowski's questioning.
    Senator Murkowski. Thank you, each of you, for your 
contribution here. I think as we think about the role of the 
Coast Guard, it is easy to think about the icebreaking 
capacity, the helos that we need, the response cutters. But I 
think the recognition is that there is an expanding role in so 
many different sectors.
    And, Bruce, you mentioned what we are seeing with the 
increased shipping traffic. As there is more water, you are 
going to see more ships. As there are opportunities to decrease 
your costs by moving through the northern waterways routes or 
up around the Northwest Passage, we are seeing changes. And 
again, the Coast Guard's responsibility just becomes that much 
more enhanced.
    So I would like to focus just real quickly in terms of what 
we're seeing with the volume of commercial shipping and 
traffic.
    I am going to show the chairman here a picture that shows 
the volume of ships. These are the numbers of ships that move 
through Unimak Pass.
    Now, Unimak Pass is here on the Aleutian Islands. And when 
you're transiting from the lower 48 from Seattle, you either 
come around the Aleutian chain, which is all the way up here, 
or you cut through Unimak. So you have a choke point here at 
Unimak. The distance here is about 12 miles, I understand.
    You also have a choke point here in the Bering Sea, where 
it is about 50 miles across.
    But right now, we don't have any rules of the road, so to 
speak. And you have a level of shipping traffic that is heading 
north.
    Mr. Harland, can you speak to what you are seeing, how you 
view the significance of waterway management, I guess for lack 
of better terminology, as we're seeing the volume of ship 
traffic in and around our Arctic and northern waters?
    Mr. Harland. Waterway traffic is one of the most critical 
issues facing the State of Alaska, and we have seen that 
transportation of oil and refined products, those incidents 
have dropped dramatically. And where we see the difficulty is 
in the foreign cargo ships, which are using Unimak Pass. It's 
innocent passage. They are on their way from an international 
voyage to a U.S. port or a Canadian port.
    And if they have engine trouble, if they have steering gear 
go out, then they are at the whim of the weather. And the 
Selendang Ayu is an incident that was a devastating impact to 
the city of Unalaska and the region, which spilled oil and a 
whole cargo of soybeans.
    And part of that funding from that incident is doing the 
Aleutian Islands risk assessment study. And they are looking at 
how we can make Unimak Pass and the Bering Sea routes safer, 
and what kind of vessel traffic system can be put in place that 
still abides by international law, that you can't impede 
innocent passage, but allows some safeguards and some 
regulation of the traffic.
    We're seeing 70 or so ships a year ago that go to Red Dog 
Mine and come back down through the straits. As the Northwest 
Passage and the northern sea route become more popular, 
especially in the marine season, the 120 days they can operate, 
you're going to see continued traffic increases through there.
    I suspect that it will be a slow buildup, but right now, 
Unimak Pass is the single largest transit point in the State of 
Alaska and the most risk for an incident.
    Senator Murkowski. It is appropriate that we note it is not 
only the commercial shipping traffic.
    We have cruise ships, Madam Chairman, that are now going 
through the Northwest Passage there.
    You mentioned the ore. We have the minerals coming out of 
Red Dog. It is a level of ship activity that is truly 
unprecedented.
    Let me ask this question to you, Mr. Burden. And in my 
opening comments I noted that District 17 is facing a 19-
percent reduction in the availability of cutter days for 
fisheries law enforcement. And you spoke to not only the role 
that Coast Guard plays in terms of search and rescue, I think 
it is important to note for the record that, last year, 
District 17 responded to 586 search-and-rescue cases. They 
saved 146 lives, and they assisted 712 mariners.
    I think our fishermen know and respect the role of the 
Coast Guard here, but it speaks to the significance of the role 
of the Coast Guard within the fisheries industry.
    So if the Coast Guard is seeing a reduction, will see a 
reduction in the number of days they are actually out there on 
the water, whether it is for fisheries law enforcement, or 
whether it is for search-and-rescue cases, what does that mean 
to you in the industry?
    Mr. Burden. Thank you, Senator Murkowski.
    It is very difficult to stress the significance of those 
statistics that you just cited. They are not only significant, 
they are also heroic, in many ways.
    As you know, the environment of the Bering Sea can be quite 
treacherous. And the expanse of the Bering Sea is immense.
    When it comes to the perspective of the seafood industry, 
we are operating in some very hazardous environments. And it 
often comes down to a matter of minutes in response time. And 
those minutes mean the difference between life and death, 
between a successful response and an unsuccessful one.
    And so, from the seafood industry's perspective, we believe 
there is a certain level, a minimum amount of resources that 
are necessary to adequately patrol not only for enforcement but 
also to respond to safety incidents as they occur, and not only 
a certain quantity of resources, but also a certain quality of 
resources.
    As you know, and as we have been speaking about here, 
routinely, is the hazardous conditions. And I think it would be 
a real tragedy to have an incident begin to occur and have a 
delay in response time due to the inability to start up 
something, for instance.
    So we really are concerned about the level of response 
capability and also the quality of that response capability.
    Senator Murkowski. And, Dr. Myers, I appreciate also your 
discussion about the role that UAVs can play. I think it is 
significant that when Healy was escorting the Renda north, 
you're looking to find that path of least resistance through 
the ice. And we have some pretty smart folks out there that I 
think realized toward the end that one of the better, more 
effective ways to find those leads, those breaks in the ice, 
was through the use of UAVs that they were able to launch and 
run out there. And it made the passage doable.
    I think we appreciate that we can do so much more. As 
Senator Landrieu has mentioned, we can utilize these for 
fisheries enforcement, as you're out over incredible open areas 
where to have manned aircraft and a helicopter out there, it's 
tough. So how we can utilize that more I think is going to be 
critically important to us.
    You also mentioned the mapping. I think it is important to 
acknowledge that, as we speak, the National Oceanic and 
Atmospheric Administration (NOAA) is out there, gathering 
additional coastal topography data.
    Madam Chairman, they are essentially mapping an area that 
has not been mapped since Captain Cook was sailing these shores 
in the 1800s. Now, if you're a navigator, you're a mariner out 
there, I think you'd like to know that your data is just a 
little bit more up to date.
    But, Dr. Myers, can you give me any other examples where 
the University of Alaska is cooperating, whether it is with 
what NOAA and Fairweather are doing, whether it is your 
research with the UAVs, how are you partnering with the Coast 
Guard to help with the expanding role in the Arctic?
    Dr. Myers. Thank you, Senator Murkowski.
    First of all, I would like to really say how pleased the 
university is with the support we have been getting from the 
Coast Guard. Admiral Ostebo has been up to the university many 
times. We have had great conversations on emerging 
technological approaches, both how we can get support from the 
Coast Guard but also how the Coast Guard might employ some of 
the new systems and ideas coming online.
    So it has been a very, very constructive dialogue. And as 
you have pointed out, and other panelists have pointed out, the 
Arctic has really some unique characteristics, not the least 
of, it is very dark and very cold for much of the year. And 
traditional observational systems that might work in the gulf 
don't work so well in the Arctic for those reasons. We lack 
support infrastructure.
    So as we look at those concepts, again, any time we combine 
and merge sensor technologies together, we have a better 
picture of the Arctic.
    You mentioned the UAVs, in the example. UAVs can be used 
with all sorts of other instruments, not just optical cameras. 
They have 3-D presence. They can loiter longer than aircraft 
can. They don't risk a pilot. You can afford to lose them if 
you have to.
    So they are a key technology, but they are not unique. 
Better integration of the satellite technologies that are out 
there, new technologies like hyperspectral being used.
    I will just give you an example. When you have oil in ice, 
you get a very different spectral signature. You have a very 
hard time telling pond water from oil, just because of the 
characteristics. Now take that into the darkness.
    So you can see, you have to use different sensors. You have 
to use a different set of mixtures. We have to understand those 
systems. We need not only to do the research, but we then need 
to operationally integrate those in.
    So, there is one example, better fusion and approaches of 
the technology.
    One area we are very excited about is the National Science 
Foundation is funding a new oceanographic research vessel 
specifically designed to work in Arctic waters, the Sikuliaq, 
which will launch in October.
    Now, it is capable of breaking about a meter of ice. Again, 
not nearly as capable as a heavy or medium icebreaker, but can 
work on the fringes. It has very good scientific capacity. So 
we see great opportunities for collaboration between the 
Sikuliaq and the Healy, for example, real opportunities.
    You mentioned the mapping. We need much more multi-beam 
sonar data, to get to the bathymetric data down, particularly 
as we move further north, it gets pretty shallow pretty 
quickly.
    Deepwater port studies to look at possible locations, at 
port clearance, and really look at what are the conditions, 
what are the challenges there environmentally, what is the 
utility.
    And then finally, an area of important collaboration is the 
university has operated local community colleges out in the 
rural communities. We have strong, established relationships 
with these communities of trust between and collaborative 
education and participatory science where the communities 
participate. That relationship is very handy in terms of 
developing a core trust and core communications in the social 
sciences.
    So as you look at resiliency of communities, that is 
another area. And social response to change, and to disasters, 
and to search and rescue, the university can play a really good 
role working with the Coast Guard in terms of building better 
relationships and more resiliency in local communities, and 
bidirectional information flowing from those communities to our 
agencies.
    Senator Murkowski. We appreciate what you are doing.
    Thank you, Madam Chairman.
    Senator Landrieu. Thank you.
    Our hearing is just about ready to come to a close. I think 
the testimony has been terrific.
    I just would like to end with one question to you, Dr. 
Myers. You oversee a research budget of about $123 million. 
What are the two or three areas that you're focusing your own 
budget on, believing that you would be setting your own 
priorities that might serve as some guidance to the Federal 
Government, in terms of our research dollars?
    Dr. Myers. A lot of those priorities have been driven by 
gaps of knowledge and also by my experience as director of the 
U.S. Geological Survey and seeing where some of those gaps are.
    Senator Landrieu. Could you list just one, two, or three 
that you are directing?
    Dr. Myers. Yes. No. 1 is oil-spill response in the Arctic. 
We have to do it differently. As you mentioned, we don't have 
the capacity, and we so we need to be a lot smarter in terms of 
how we do it. So new and emerging technology and approaches to 
understand oil, to build better predictive models of where oil 
would flow, to be able to monitor oil better, should we get to 
a worst case scenario.
    The university is targeting not the current exploration 
stage, but 10 or 15 years down, should we have, as expected--at 
least in my opinion, as expected--development of year-round 
production from the Outer Continental Shelf.
    So building those capacities, filling those gaps, has been 
something we have invested quite significantly in.
    Fundamental oceanographic research and partnerships. For 
instance, ocean acidification is something we are investing in, 
to understand, because we have so little data. And there is 
really very little funding coming out of Federal agencies to 
look at ocean acidification in the Arctic. They're looking at 
it elsewhere, but not so much in the Arctic. Another key area.
    Understanding the social drivers and dynamics of 
resiliency. How do we build better communications and trust? I 
think the example of the Macondo spill and the community 
response is a key example of where we can do a better job of 
communications, how can we develop better approaches of 
bidirectional communication with communities, how do we pump 
out reliable information to communities that they trust?
    So authoritative data coming to these communities, so they 
can be part of the solution and engaged early on, which has 
been a challenge, whether it be the Exxon Valdez or whether it 
be the Macondo spill. Those are, I think, another area, so the 
social science research piece is also a place where we 
prioritize.
    Senator Landrieu. I think this has been excellent 
testimony.
    And again, Senator, thank you for suggesting that we have 
this field hearing. It has been really eye-opening, and it is 
just the beginning. It is my first day, and I am looking 
forward to 3 more days down here on the ground.
    I thank Admiral Papp. I thank the men and women of the 
Coast Guard Air Station hear in Kodiak for hosting this 
wonderful event.
    I remain committed to providing the men and women of the 
Coast Guard the tools they need to accomplish your many 
missions.

                     ADDITIONAL COMMITTEE QUESTIONS

    We will leave the record open, as is customary, for 2 weeks 
for other members to submit questions or for other testimony to 
come from the community at large, comments from the community 
at large.
    So the subcommittee will hold the record open for 2 weeks, 
until close of business Monday, August 20.
    [The following questions were not asked at the hearing, but 
were submitted for response subsequent to the hearing:]
              Questions Submitted to the U.S. Coast Guard
            Questions Submitted by Senator Mary L. Landrieu
                           polar icebreakers
    Question. Currently, the Coast Guard has two heavy polar 
icebreakers, the Polar Sea and the Polar Star. The Polar Star is being 
refurbished and will be reactivated in 2013 for another 10 years of 
service, and the Coast Guard has plans to decommission the Polar Sea. 
The fiscal year 2013 budget request and the Senate bill include initial 
funding for a new icebreaker, but it will take 8-10 years to complete. 
A recent study sanctioned by the Coast Guard, named the High Latitude 
Study, calls for a minimum of three heavy polar icebreakers and three 
medium polar icebreakers.
    How many new heavy polar icebreakers does the Coast Guard intend to 
procure and what would be the implications for future Coast Guard 
operations of having a polar icebreaking fleet that includes only one 
heavy polar icebreaker?
    Answer. The Coast Guard plans to acquire one new polar icebreaker. 
The Coast Guard can meet known mission demands with the addition of one 
polar icebreaker. The number of icebreakers needed for Coast Guard 
operations in the future is dependent upon actual demand in the Polar 
regions.
    Question. Please elaborate on the challenges that the Coast Guard 
faces in building a new icebreaker, including affordability, industrial 
supplier base, and schedule?
    Answer. The last polar icebreaker constructed in the United States 
was the CGC Healy, delivered in 1999. Healy was built at Avondale 
shipyard. The current industry may require production line upgrades and 
acquisition of specialized tools, material, and equipment. The 10-year 
estimated schedule to complete reflects the challenges associated with 
the special design of the ship. As a current example, the Canadian 
Coast Guard is currently constructing a new heavy icebreaker. The 
Diefenbaker project was formally approved in 2008 and is projected to 
be delivered in 2018.
    Scheduled elements include acquisition or development of a current 
design, time necessary to place the design and construction on 
contract, production engineering preparation time, vessel construction, 
post delivery work, and ice trials. Due to the need for special grades 
of steel, much thicker than normal and a unique hull form, developing a 
production design may prove more challenging than with conventional 
ships.
    Question. Instead of building an icebreaker from scratch, are there 
parent-craft designs, perhaps one built by a foreign partner, that the 
Coast Guard is looking into that would speed up the acquisition 
timeline?
    Answer. An Alternatives Analysis study will examine the potential 
for a parent-craft or parent-design. The U.S. Coast Guard is already 
working closely with the Canadian Coast Guard as they work through 
detailed-design efforts on their heavy icebreaker project, CCGS John G. 
Diefenbaker, which is projected to be delivered in 2018.
                               polar sea
    Question. The Polar Sea was placed in inactive status in November 
2011 based on its current mechanical state and cost to repair, and you 
plan to decommission the Polar Sea at the end of 2012.
    Given the growing need for icebreaking capabilities, why is the 
Coast Guard decommissioning this vessel? Does the cost to repair the 
Polar Sea outweigh the benefits of having it return to service?
    Answer. Based on the estimated cost to repair and reactivate Polar 
Sea and given a maximum service life extension of 7 to 10 years, the 
cost to return Polar Sea to operations as a near-term stopgap measure 
exceeds the benefits a return to service would provide. Additionally, 
icebreakers Healy and Polar Star will meet Coast Guard's icebreaking 
needs for the next 7 to 10 years, thus Coast Guard is concerned only 
with maintaining its capability beyond this time period. Moving 
forward, the Coast Guard will focus resources on the acquisition of a 
new polar icebreaker.
    Question. Is there an option for the Coast Guard to provide this 
vessel to a private shipyard for repair and then have the shipyard 
lease it back to the Coast Guard until a new icebreaker is built?
    Answer. The direct transfer of Polar Sea to a private shipyard has 
not been analyzed by the Coast Guard. Leasing a vessel is a short-term 
strategy to close a current capability gap, as a Government-owned asset 
provides greater operational flexibility and long-term, reliable 
capacity to meet current and future requirements. The reactivation of 
Polar Star will mitigate the current capability gap. The capability gap 
assumed from the High Latitude Study Mission Analysis Report is based 
on long-term projections through 2040; a short-term leasing option is 
not a cost-effective strategy to fill these gaps.
                        offshore patrol cutters
    Question. During the next decade, the offshore patrol cutter (OPC) 
is scheduled to replace 270-foot and 210-foot medium endurance cutters 
that are nearing the end of their service lives. Compared to the 
national security cutter (NSC), the OPC will be smaller, less 
expensive, and in some respects less capable. Construction of the first 
OPC is expected to begin in fiscal year 2017 with delivery in fiscal 
year 2020.
    To what extent, if any, does the Coast Guard plan to use OPCs for 
operations in Alaskan waters? How will the capabilities of the OPC 
compare to those of the NSC?
    Answer. Offshore patrol cutters will be designed to perform Living 
Marine Resources Enforcement, Search and Rescue, and Maritime Boundary 
Line Enforcement while in Alaskan waters. The OPCs will be capable of 
operating year round in the Gulf of Alaska and Bering Sea, and per the 
Operational Requirements Document and Concept of Operations, may 
operate in areas of less than 100 percent coverage of broken plate, 
pancake, and sea ice ranging from 10 to 30 inches thick (though the OPC 
will not conduct icebreaking as a mission). The ability to operate in 
such ice conditions is an objective capability.
    The national security cutter and offshore patrol cutter 
capabilities are listed in the following table:

 
------------------------------------------------------------------------
                                    Offshore patrol    National security
           Capability             cutter (projected)        cutter
------------------------------------------------------------------------
Seakeeping......................  Sea State 5 (up to  Sea State 5 (up to
                                   13-foot seas)--     13-foot seas)--
                                   Boat and Helo ops.  Boat and Helo ops
Endurance.......................  8,500-9,500         12,000 nautical
                                   nautical miles/45-  miles/60 days
                                   60 days.
Boats and Aviation (Hangar).....  2-3 boats and H-60/ 3 boats and H-60/
                                   Vertical Unmanned   Vertical Unmanned
                                   Aerial Vehicle (H-  Aerial Vehicle (2
                                   65).                H-65)
Speed...........................  22-25 knots.......  28 knots
Accommodations (maximum)........  120-126...........  146
Command and Control.............  Some integration &  NATO
                                   interoperability.   interoperable,
                                                       Integrated,
                                                       Tactical datalink
Intelligence Collection.........  Partial...........  Full
Force Protection, including       Ballistic, Forward  Collective
 Chemical.                         weapons,            Protection System
                                   Countermeasure      and
                                   Washdown.           Countermeasure
                                                       Washdown, Forward
                                                       & Aft weapons.
Deployer........................  Independent,        Full battle group
                                   Theater Security
                                   Cooperation.
Underway resupply...............  Fueling at Sea/     Fueling at Sea/
                                   Provide to patrol   Provide to patrol
                                   boats.              boats
------------------------------------------------------------------------

    Both the OPC and the NSC will have the necessary seakeeping to 
operate year-round in Alaskan waters, but the NSC has increased range 
and endurance as compared to the OPC, allowing it to remain in the 
patrol area for a longer period without refueling.
    Question. What missions in Alaskan waters would be better performed 
by NSCs than OPCs?
    Answer. Both the OPC and the NSC will have the necessary seakeeping 
to operate year-round in Alaskan waters, but the NSC has increased 
speed, range, and endurance as compared to the OPC, allowing it to 
remain in the patrol area for a longer period without refueling. The 
NSC also carries three boats as compared to two planned on the OPC, and 
has an additional helicopter hangar. These additional capabilities are 
critical for executing search and rescue and law enforcement operations 
in the harsh weather of the vast Alaskan region. Specific advantages in 
capability of the NSC as compared to the OPC include:
  --28 knots sustained as compared to projected 22-25 knots of speed 
        for the OPC. This capability is useful in the Alaska region 
        where there are limited forward operating locations for Coast 
        Guard helicopters to stage from during the peak search and 
        rescue (SAR) season.
  --A range of 12,000 nautical miles as compared to 8,500 nautical 
        miles for the OPC. This additional range is useful for 
        executing long-range fisheries enforcement actions, such as 
        with the recent case in which the Coast Guard turned over a 
        vessel suspected of illicit drift net fishing east of Japan in 
        the North Pacific Ocean to the China Fishery Law Enforcement 
        Command.
  --60 days endurance, which is a full 2-week advantage over the OPC. 
        This capability is useful as long as oilers to conduct at-sea 
        replenishment are scarce in the Alaska region, and ports to 
        resupply are limited (only Dutch Harbor and Kodiak, Alaska).
    Question. Will some of the OPCs be built with ice-strengthened 
hulls to operate in the Arctic?
    Answer. The Operational Requirements Document and Concept of 
Operations for the offshore patrol cutter include a brief discussion of 
an OPC variant that could operate in areas of less than 100 percent 
coverage of broken plate, pancake, and sea ice ranging from 10 to 30 
inches thick (though the OPC will not conduct icebreaking as a 
mission). The ability to operate in such areas and conditions is an 
objective capability.
                               rescue 21
    Question. Rescue 21 is the Coast Guard's advanced direction-finding 
communications system that is deployed on U.S. coastlines to better 
locate mariners in distress and save lives. Rescue 21 is replacing the 
National Distress and Response System, which has been in use since the 
1970s. The Rescue 21 system began initial operations in 2005 and has 
since been deployed across the continental United States and Hawaii, 
but Alaska has been a challenge due to its rough terrain and extreme 
weather.
    What are the Coast Guard's plans with respect to expanding Rescue 
21 throughout Alaska?
    Answer. The Coast Guard will recapitalize the legacy National 
Distress Response System (NDRS) in Alaska. Rescue 21 Alaska will differ 
from the system currently being deployed by General Dynamics C4 Systems 
(GDC4S) due to the unique geographic, operational, and environmental 
challenges. Starting in fiscal year 2013, the Coast Guard will 
recapitalize the console control systems and increase VHF FM voice 
capability at existing remote tower sites.
    The Coast Guard will also increase system coverage in a minimum of 
three areas prioritized by the Pacific Area and Alaska (District 17) 
Commanders through their review of actual Search and Rescue case data 
and meetings with Alaska operational stakeholders. These new areas are 
Middle Cape, Peril Strait, and Fairweather Banks. New tower sites 
planned for these areas will require design and construction activities 
including completion of all logistics planning, permitting, and 
environmental compliance requirements.
    Additionally in fiscal year 2013, the project will add Digital 
Selective Calling (DSC) functionality and complete network 
infrastructure upgrades. This will allow command centers to 
automatically receive GPS position data from vessels in distress with 
properly configured DSC radios.
                            arctic research
    Question. Dr. Mark Myers, the vice chancellor for research at the 
University of Fairbanks included in his written testimony, the 
following: ``A significant investment in research will be necessary for 
the Coast Guard to understand the changing conditions successfully and 
their effects on its key missions and incorporate new approaches and 
technologies into Arctic operations.''
    What is the Coast Guard is doing in terms of Arctic research or 
other projects related to challenges in Alaska?
    Answer. The Coast Guard has been actively engaged in Arctic related 
research since 2009, when the Coast Guard began evaluating technologies 
and developing approaches for responding to oil spills in ice-covered 
waters.
    To date, the Coast Guard has conducted two spill response 
demonstrations in the Great Lakes prior to testing in the Arctic region 
to evaluate the efficacy of current oil-in-ice response capabilities. 
These demonstrations included participants from multiple State and 
Federal agencies, spill response organizations, foreign governments and 
both Coast Guard and commercial vessels. Preliminary results indicate 
that heated skimmers, and emerging techniques such as oil herding, show 
promise and warrant further field evaluation. The Coast Guard also 
conducted a spill response demonstration during the Coast Guard's 
Arctic Shield exercise in the Arctic region in August 2012, deploying a 
Spilled Oil Recovery System (SORS) and a heated skimmer from a Coast 
Guard buoy tender. The Coast Guard also plans to conduct another Great 
Lakes exercise in January 2013 that will include greater in-depth 
testing of the SORS plus additional response technologies, to include 
oil detection on and under ice.
    The Coast Guard is also investigating vessel capabilities for 
Arctic operations. The investigation included an Arctic craft 
demonstration that took place off Barrow, Alaska, in August 2012. 
During this demonstration two amphibious vehicle technologies were 
evaluated for performance across unimproved shore, through open water, 
and transiting through or over ice flows. The goal of the effort is to 
identify the most appropriate craft/boat for Coast Guard operations off 
the North Slope of Alaska and off cutters operating in and around ice-
covered waters.
    The Coast Guard is also researching Arctic communication 
alternatives. One project is assessing the operational use of the U.S. 
Navy-led joint mission Tactical Microsatellite (TacSat) 4 for Arctic 
communications. Testing will use satellite communication systems aboard 
Coast Guard cutters and aircraft operating in the Chukchi and Beaufort 
Seas. The satellite's unique coverage pattern, a ``low HEO'' (highly 
elliptical orbit) with long dwells on theaters, may provide the Coast 
Guard with communications capabilities not always available in the high 
latitudes. The Coast Guard also plans to research High Frequency (HF) 
communication gaps and options in the Arctic region. The study will 
model current capabilities and identify potential future solutions to 
close gaps.
    Search and Rescue (SAR) in waters that are partially or completely 
ice-covered is another area of current Coast Guard research. While 
testing has yet to occur in Alaska, realistic search performance tests 
approximating procedures for Coast Guard helicopters and airboats in an 
Arctic environment have taken place in the Great Lakes. These tests may 
prove to be useful in developing tactics and procedures for use in the 
environment in Alaska.
    The Coast Guard also continues to partner with other agencies and 
entities conducting Arctic research. One such example is the Coast 
Guard's partnership with the Army Corps of Engineers' Cold Regions 
Research and Engineering Laboratory (CRREL). The partnership 
underscores anti-icing technologies, as they relate to vessels, 
aircraft, and shore infrastructure (e.g., antennas aboard cutters, 
boats, and aircraft and how this impacts vessel-to-shore communication 
in Arctic conditions).

    Senator Murkowski. And, Madam Chairman, I would just ask 
unanimous consent that the testimony that we have received from 
Lieutenant Governor Treadwell that was submitted to the 
subcommittee be submitted for the record. We do have that. He 
had asked me to do just that.
    Senator Landrieu. Absolutely. We will, without objection.
    [The statement follows:]
    Letter From Lieutenant Governor Mead Treadwell, State of Alaska
                                                    August 6, 2012.
Hon. Mary L. Landrieu,
Chairman, Subcommittee on Homeland Security,
Washington, DC.
Hon. Lisa Murkowski,
Member, Subcommittee on Homeland Security,
Washington, DC.

RE: Hearing on the Need for a Robust United States Coast Guard Presence 
        in Alaska
    Dear Senator Landrieu and Senator Murkowski: Thank you for the 
invitation to today's hearing. A family commitment has kept me out of 
town.
    This letter submits comments to the Senate Subcommittee on Homeland 
Security Appropriations for its hearing held in Kodiak, Alaska on the 
need for a robust U.S. Coast Guard presence in the U.S. Arctic.
    First, on behalf of the State of Alaska and its grateful people, 
who are part of a grateful nation, we honor the work of the United 
States Coast Guard and two of its fallen Kodiak Guardsmen, Petty 
Officer 1st Class James Hopkins, an electronics technician, and Richard 
Belisle, a civilian employee and retired Coast Guard chief petty 
officer, who were killed this spring while on duty. Alaska mourns with 
the families and friends of Jim and Rich. We are enduringly grateful 
for the work of the Coast Guard everywhere in Alaska.
    The United States must prepare now to realize and act on the 
significant opportunities and address the changing needs in the Arctic 
over the coming decade. We are already seeing an increase in activity 
in the Arctic from oil and gas exploration, mineral development, 
tourism and marine transportation. This testimony addresses four 
specific needs that relate to the work of the USCG in America's Arctic: 
permitting needs for new infrastructure, planning for offshore energy 
exploration and development, preparing for new global shipping 
patterns, and addressing gaps in science and research.
    1. Alaska has extensive amounts of stranded resources. The State is 
hard at work planning pipelines and roads to bring these resources to 
world markets and to communities suffering from crippling energy 
prices. Nearly all these mineral and energy projects need roads and 
pipelines with river crossings--bridges that must be approved by the 
USCG. We understand the Coast Guard has just one permit administrator 
in Alaska. While a ``general permit'' approach should be considered, we 
urge the Congress and the Coast Guard to make sure staff resources are 
sufficient in this area to streamline permitting and help access to 
Arctic resources and communities.
    2. Offshore oil and gas exploration and development is a present 
reality. The USCG has a leading role in ensuring marine safety and 
environmental protection. This year's drilling season is the beginning 
of what we expect could be sustained exploration and development. Land, 
air, and sea-based Coast Guard resources will become increasingly more 
necessary. If Shell, ConocoPhillips, StatOil and others are successful 
in their exploration, regular Coast Guard presence will be necessary 
for enforcement and oil spill prevention. These important duties can't 
be performed from a distant base such as Kodiak or even Unalaska. The 
Coast Guard needs to have heated hanger space, housing and other basic 
infrastructure in the Arctic that will allow for sustained 
surveillance, search and rescue, inspections and enforcement, and 
coordination of spill response efforts.
    3. As the Arctic Ocean becomes increasingly accessible, European, 
Asian and North American nations are taking advantage of new shipping 
routes. U.S. Arctic policy calls for a shipping regime that is safe, 
secure, and reliable. Alaska and the Nation's coast are protected by 
Federal laws such as the Oil Pollution Act of 1990 and State laws. Many 
federally required standards are administered by the Coast Guard. For 
regulated vessels, these standards are some of the most stringent in 
the world. Standards exist for vessel design, equipment, operations, 
crew licensing and manning requirements, navigation safety, and spill 
liability. Industry can and has voluntarily exceeded these minimum 
standards. One of the most important changes was the phasing out of 
single hull tankers to double hulls. We are concerned these standards 
do not apply to many vessels passing through the Bering Strait and the 
Aleutian Islands.
    (a) Unregulated vessels in the Aleutians (which the U.S. has been 
            including in the American Arctic) and Bering Strait are a 
            threat to that goal. To help mitigate the danger, it is 
            imperative that the USCG implement and enforce U.S. 
            regulations for tank and non-tank vessels within U.S. 
            jurisdiction and aggressively pursue improvements for oil 
            spill preparedness and response for foreign vessels in 
            innocent passage through the International Maritime 
            Organization. Alaska is at the intersection of the 
            circumpolar shipping route for trade between our Pacific 
            west coast and the Pacific Rim countries. Alaska is also 
            the gateway to Arctic shipping through the Bering Sea, 
            which is arguably the most productive fishery in the world. 
            Increased presence, improved oil spill preparedness and 
            response, and establishment of oil spill removal 
            organizations in remote areas are essential for resource 
            protection and safe shipping for both the circumpolar and 
            Arctic shipping routes. Completion of the ongoing risk 
            assessments for both the circumpolar shipping route through 
            the Aleutians and the Arctic shipping route through the 
            Bering Straits is essential.
    (b) This past January, the world watched as the Coast Guard Cutter 
            Healy escorted the Russian tanker Renda with a vitally 
            important cargo of fuel for residents of Nome. We are 
            grateful to the selfless crew of the Healy, who increased 
            an already long deployment and gave up celebrating the 
            holidays with their families to come to the rescue of iced-
            in Alaskans. The thick ice put the Healy's medium-class 
            ice-breaking capabilities to the test, and the lesson 
            reaffirmed that America needs heavy, polar class 
            icebreakers.
    (c) Through the Arctic Council, the U.S. has signed an 
            international agreement on search and rescue in the Arctic. 
            We are responsible for the lives of those in our sector who 
            are in danger, and we must be ready to respond.
    (d) The U.S. is also participating on the Arctic Council Task Force 
            for Arctic Marine Oil Pollution Preparedness and Response 
            to develop an international instrument on Arctic marine oil 
            pollution preparedness and response with the eight Arctic 
            nations. This instrument provides a framework for 
            international collaboration in combating incidents or 
            threats of marine oil pollution and will be presented at 
            the next Ministerial meeting of the Arctic Council in 2013. 
            For this, too, we must be prepared.
    (e) The Coast Guard will be on the front lines in following through 
            on these binding agreements with our Arctic neighbors. We 
            look forward to commenting upon the Committee on Marine 
            Transportation Services' report ordered by Congress on 
            these issues under the Arctic Marine Shipping Assessment 
            Act of 2010.
    4. Lastly, we continue to need appropriate access and platforms for 
science in the Arctic. Although the State of Alaska strongly supports 
the U.S. Senate's ratification of the UN Convention on Law of the Sea, 
there is some concern that ascension to it will make parts of the 
Arctic Ocean less accessible for some kinds of science and research. We 
need to support long-term monitoring networks and good land and sea 
mapping now, to support later U.S. claims in the Arctic.
    The State of Alaska stands ready to be a partner with the United 
States and USCG in all these efforts. Governor Sean Parnell, in a 
letter to U.S. Representative Don Young dated March 15, 2012, said that 
while the State will not subsidize Federal missions such as 
icebreaking, it can be supportive in other ways, such as financing. 
Alaska is also already working with Federal partners on studies for 
Arctic ports. We are laying plans for Arctic marine shipping, and 
participating in Federal studies and the international agreements 
mentioned above. We are a long-standing partner with the Federal 
Government in science, and just submitted comprehensive feedback from 
State agencies on the Interagency Arctic Research Policy Committee 
draft 5-year Arctic research plan.
    America must be ready for an accessible and developing Arctic. The 
rest of the world is not waiting for us as energy exploration, 
development, shipping, and tourism grow in this ocean. A Russian think-
tank recently suggested the Arctic Ocean be renamed the Russian Ocean 
because they take this opportunity seriously. America has to be serious 
about the Arctic. Equipping our Coast Guard is part of rising to the 
challenge and benefiting from the new opportunities before us.
            Sincerely,
                                   Mead Treadwell,
                                           Lieutenant Governor, State 
                                               of Alaska.

                         CONCLUSION OF HEARING

    Senator Landrieu. And the meeting is adjourned.
    [Whereupon, at 11:38 a.m., Monday, August 6, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 
</pre></body></html>
